<html>
<title> - [H.A.S.C. No. 116-9]OUTSIDE PERSPECTIVES ON NUCLEAR DETERRENCE POLICY AND POSTURE UPDATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          [H.A.S.C. No. 116-9]

                        OUTSIDE PERSPECTIVES ON
                       NUCLEAR DETERRENCE POLICY
                           AND POSTURE UPDATE
                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD

                             MARCH 6, 2019

                                     
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-235                    WASHINGTON : 2019                                     


                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                         Leonor Tomero, Counsel
                Sarah Mineiro, Professional Staff Member
                          Justin Lynch, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     4

                               WITNESSES

Blair, Bruce G., Research Scholar, Program on Science and Global 
  Security, Princeton University.................................     7
Miller, Hon. Franklin C., Principal, The Scowcroft Group.........     9
Rohlfing, Joan, President and Chief Operating Officer, Nuclear 
  Threat Initiative..............................................     5

                                APPENDIX

Prepared Statements:

    Blair, Bruce G...............................................    69
    Miller, Hon. Franklin C......................................    87
    Rohlfing, Joan...............................................    57

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................   113
    Mr. Kim......................................................   113


 
           
  OUTSIDE PERSPECTIVES ON NUCLEAR DETERRENCE POLICY AND POSTURE UPDATE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 6, 2019.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Thank you, and I want to welcome our 
witnesses, members of the audience, members of the committee. 
We are here today to discuss the Nuclear Posture Review and 
nuclear policy going forward, in terms of our nuclear weapons.
    Before we get to that, a couple of housekeeping issues.
    For the hearing today, as I understand it, the witnesses 
don't have a hard stop. I do at 12:30. If there are still 
members around that want to ask questions at that point, I will 
have somebody else on the Democratic side take the chair to get 
through those questions, and we will go from there. We will 
stop at 12:30.
    And tomorrow, when we have our first posture hearing, we 
are going to, for questioning purposes--and you should have 
gotten notice on this--go from the bottom up. So we will start 
with Mrs. Luria and work our way up for questioning. So just in 
terms of your planning tomorrow, we are going to try and do 
it--no, we are actually going to succeed, we are going to do it 
that way--have the more junior members get to go first, because 
we have so many members of committee, frequently we have 
hearings and they don't get an opportunity to ask their 
questions.
    With that, we will start this hearing. I want to start by 
welcoming our witnesses: Ms. Joan Rohlfing, president and COO 
[chief operating officer] of the Nuclear Threat Initiative; Dr. 
Bruce Blair, who is research scholar, program on science and 
global security at Princeton University; and the Honorable 
Franklin C. Miller, principal at The Scowcroft Group.
    I think this is an incredibly important topic to discuss. 
Two things I want to make clear at the start. I completely 
support a strong and robust nuclear deterrent. We need nuclear 
weapons in the world that we live in today in order to deter 
our adversaries and meet our national security objectives as a 
country.
    Personally, I don't think that is debatable. We have, 
certainly, Russia, with their nuclear weapons; China, as well; 
rising threats from North Korea and Iran. And the best and most 
straightforward way to deter people from using nuclear weapons 
is if you are in a position to assure that they will be 
destroyed if they do. So having a nuclear deterrent is 
incredibly important.
    Second, our nuclear weapons have been around for a long 
time, and I have no question that we need to update and upgrade 
those weapons, look at what is working, what isn't working. We 
need to recapitalize our nuclear structure.
    What I question is whether or not we need to do it to the 
tune of more than $1.2 trillion, as both the 2010 and the 2018 
Nuclear Posture Review has called into question. And this 
hearing, I hope, will help us answer that question.
    Do we have to have absolutely everything that we have had 
before, plus some of the weapons systems that the Trump 
administration is now talking about adding, including a new, 
long-range stand-off missile, which was requested before the 
Trump administration, and a new low-yield nuclear weapon, 
launchable from our submarines, which is new to the Trump 
administration?
    The Congressional Budget Office just recently went through 
and analyzed all that is in the Nuclear Posture Review, and 
gave some options, in terms of we could not do that and here is 
how much money we would save. And I think those are questions 
that need to be asked, for several reasons.
    First of all, we have a $22 trillion debt that is going up 
by about $1 trillion. In fact, it increased dramatically in the 
first quarter of this year over the first quarter of last year.
    We also have a large number of needs within the national 
security environment. Forget for the moment everything else 
that the Federal Government does. Just within national security 
we have had a number of studies that have come out. We have 
heard the Secretary of the Air Force say that she needs 25 
percent more aircraft for the Air Force. We just had a review 
of our missile defense program, which also said we need a 
dramatic increase. The Navy still says they need a 355-ship 
Navy, which is significantly more than we have now. The Army 
would like to build towards an end strength that is 
substantially larger than it is right now.
    And the question I have is--well, not the question. The 
statement is, that math doesn't work. We are not going to have 
enough money to do all of that. So what we have to, at least in 
part, think about is what can we not do. Where can we save 
money?
    And within the nuclear weapons area, I believe that a 
credible deterrent can be presented for less than is called for 
in the Nuclear Posture Review. Now, I understand that a 
bipartisan group of people disagree with me on that. But a 
bipartisan group of people to some degree agree with me. So we 
are here to have that discussion and that debate.
    So number one is, you know, can we save money in here and 
still meet our national security objectives, still deter our 
adversaries? Because if we can, it is something we should talk 
about. And these are things that many people have contemplated. 
Former Secretary of Defense Jim Mattis, you know, when asked 
about whether or not the triad was necessary, said he wasn't 
sure, and talked about, well, if we had a dyad and didn't have 
the ICBMs [intercontinental ballistic missiles], then we would 
have a much smaller risk of miscalculation, based on a false 
alarm.
    You know, very, very hawkish people have contemplated the 
notion that we don't need as many nuclear weapons as are 
contemplated in the Nuclear Posture Review, and that having 
that many is potentially destabilizing. And those are the other 
two points of this hearing that I really hope we will get into 
a discussion on.
    Number one is the concept of arms control. We, I feel, need 
to have a discussion with the Russians and, yes, with the 
Chinese about that issue. A number of former defense officials, 
including former chairman of the Senate Armed Services 
Committee Sam Nunn, former Secretary William Perry, former 
Secretary George Schultz, have said that we are stumbling 
towards a nuclear catastrophe because we have not rebooted any 
sort of arms control discussion or any sort of discussion with 
the Russians since the end of the Cold War about how we prevent 
an accidental nuclear war.
    So those are our other two--we are now pulling out of the 
INF [Intermediate-Range Nuclear Forces] Treaty, there is the 
potential for us to pull out of the New START [Strategic Arms 
Reduction] Treaty. And I am not presupposing at the moment that 
any one treaty is the exact right one, but I am deeply 
concerned about the fact that the administration right now has 
no interest in discussing any such treaty with China or Russia, 
not even having the conversation.
    We are now about to kick off another nuclear arms race. Is 
that a smart thing to do, without at least talking to our 
adversaries, and which brings us to the third issue, and that 
is stumbling into a nuclear war.
    Throughout the Cold War--and if you read Secretary Perry's 
book about the number of times during the Cold War when we were 
this close to having a nuclear war, based on false alarms, 
based on information that was wrong--how do we make sure that 
we prevent that?
    Well, a big part of it is dialogue. And right now we don't 
have that dialogue with the Russians or the Chinese. We do have 
that dialogue with North Korea. But I think making sure that we 
have a dialogue, and we learn the lessons of the Cold War and 
what--frankly, President Reagan was the one who put those two 
things most in place: arms control treaties and open discussion 
with our then Soviet adversaries about how to prevent a nuclear 
war.
    So I believe in the deterrents, I know we need nuclear 
weapons. But do we need $1.2 trillion's worth? And it may be 
more than that, once the final bill comes done. I have served 
on this committee long enough, I have a hard time remembering a 
single program that actually came in for less than they 
projected it, much less one that's spread out over 30 years and 
encompasses as many items as the Nuclear Posture Review does.
    So how does that affect our other needs in the defense, and 
are we not able to meet our nuclear needs for less money than 
is contemplated? It is a discussion I hope to have today.
    And with that, I will yield to the ranking member for his 
opening statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman. I too want to 
welcome our witnesses here. I completely agree with your 
statement that this is a very important topic, and I believe it 
is useful to have some different perspectives on our nuclear 
deterrent.
    I start from a few fundamentals that I believe have been at 
the center of U.S. strategic thought for 75 years in both 
parties. One of those fundamentals is that a strong nuclear 
deterrent is the cornerstone of American national security. And 
while various books may say we have come close--and obviously, 
there have been some instances, Cuban Missile Crisis, et 
cetera, that were far too close--it still is the fact that 
since the end of World War II nuclear weapons have not been 
used. And I believe that is largely the result of U.S. nuclear 
superiority made it clear that an aggressor could not benefit 
from it. We have had numerous Secretaries of Defense testify 
before this committee over the years that this was the highest 
priority of the Department of Defense.
    A second fundamental is that the Russians and the Chinese 
are modernizing their nuclear forces. I would simply quote from 
an article in RealClearDefense by Peter Hussey that says, in 
fact, early in the next decade, around 2021, Russia will have 
modernized close to 100 percent of its bombers, land-based 
missiles, and submarines, and China will, by the end of the 
next decade, have a fully modernized and expanded nuclear 
deterrent as well, with mobile ICBMs, a new missile-armed 
submarine, and long-range cruise missiles.
    Now, I hope that this committee will get into a classified 
session at some point with our intelligence community and get 
their assessment of what the Russians and the Chinese are 
doing. But the point is it is not just about us. It is about 
them, as well.
    Third fundamental, I believe, is that our weapons and 
delivery systems were designed and built for a different time, 
with different circumstances, and need to be updated. Part of 
it is just because of aging. It is kind of like anything else 
in life. If you neglect your health, if you neglect your roof, 
sometimes the bills are going to come due. And unfortunately, 
we are still dependent upon delivery systems and weapons that 
were largely built during the Reagan era.
    And so it makes sense that we will have to make up for past 
neglect, although at no point does that make-up require more 
than 6.4 percent of the defense budget. Now, can we afford 6 
percent of the defense budget for the cornerstone of American 
national security? Well, that may be an issue where we have 
differences.
    A couple other fundamentals. Number one--I mean number four 
in my list, we cannot wish away the existence of nuclear 
weapons. It seems to me that some of the writings that one 
comes across can kind of hope we can negotiate or wish away 
their existence. That is not going to occur. If we are going to 
fulfill our responsibilities to defend the country, we have to 
make sure that our deterrent is without question.
    And that leads me to my fifth fundamental assumption that 
has been at the center of American strategic thought for 75 
years, and that is America and our allies depend on a U.S. 
nuclear deterrent that is credible, safe, and reliable without 
question. And I think the big issue before us this year, and at 
this time, is the credibility of that deterrent. And if you are 
allies in Europe or allies in Asia, if that credibility starts 
to wane, you start to think about other options.
    And that is part of the reason, whether we modernize our 
delivery systems--in my view, all three legs of the triad--
whether we modernize the weapons themselves is not just a 
question for us, it is a question of whether our allies trust 
that our superiority will be to such an extent that they can 
rest secured, and not having to have their own nuclear 
deterrent, that they can rest secured in depending on it, as 
well.
    All of those are part of the reasons, Mr. Chairman, I agree 
with you that this is a big, important topic that we should not 
take lightly, or assume that slogans can somehow overcome the 
U.S. policy of the last 75 years. I look forward to hearing 
these witnesses and others to come.
    I yield back.
    The Chairman. Thank you. We will start with Ms. Rohlfing.

   STATEMENT OF JOAN ROHLFING, PRESIDENT AND CHIEF OPERATING 
               OFFICER, NUCLEAR THREAT INITIATIVE

    Ms. Rohlfing. Good morning, and thank you. I come before 
you as the president of the Nuclear Threat Initiative, a non-
partisan, global security organization----
    The Chairman. I am sorry. You have to have that microphone, 
like, right here in front of you.
    Ms. Rohlfing. Even closer?
    The Chairman. Yes.
    Ms. Rohlfing. Is that better?
    The Chairman. Yes. Well, to the side. Just speak right into 
it, and that way we can hear you better.
    Ms. Rohlfing. Great.
    The Chairman. Thank you.
    Ms. Rohlfing. I come before you as the president of the 
Nuclear Threat Initiative, a non-partisan, global security 
organization working to reduce the risk of use of weapons of 
mass destruction and disruption.
    As a former professional staff member of this committee 
during Les Aspin's chairmanship, I am honored to appear before 
you, and I commend you for your leadership on this important 
issue.
    The topic of today's hearing is one of critical importance 
for our country and the world. In the short time that I have 
for my opening statement, I want to highlight a few key points.
    First, we have arrived at a very dangerous moment, where 
the risk of nuclear use is as high as it has ever been since 
the height of the Cold War. Today we live in an environment 
where new technologies like cyber pose significant challenges 
for the integrity of nuclear forces, where terrorists are 
trying to acquire nuclear capabilities, and where nuclear 
weapons have spread to nine states, some of which, like India 
and Pakistan, are engaged in ongoing regional conflict.
    We have reached a nadir in our relationship with Russia, 
with no strategy for how to manage the existential nuclear 
threat between us, with no ongoing dialogue between the United 
States and Russia. And with regularly occurring close calls 
between our two militaries, we are at a high risk of blundering 
into conflict.
    Second, we are headed in the wrong direction. Instead of 
focusing on policies, practices, and deployment decisions that 
move us out of danger and reduce the risk of nuclear use, we 
are taking actions that increase the chances of use. We have 
been increasing, rather than decreasing, our reliance on 
nuclear weapons. The administration is proposing to move 
forward with new types of weapons and new scenarios for their 
use.
    And, perhaps most troubling, we have been systematically 
removing the guardrails that have regulated nuclear competition 
and reduced nuclear threats for more than five decades: the 
agreements, treaties, dialogue, negotiations, and verification 
that have helped to keep us safe. We are now at a point where 
the only protective guardrail still in place is the New START 
Treaty, which will expire in less than 2 years, unless it is 
extended, something the United States and Russia can and should 
do on a priority basis.
    Finally, Congress has a critical role to play in supporting 
policies, forces, and actions that reduce the risk of use, 
prevent proliferation pressures, and keep in place the 
guardrails of nuclear stability, predictability, and 
transparency that keep our country safe.
    What can Congress do to help reduce nuclear dangers? 
Several specific recommendations for your consideration 
include: number one, Congress must take the lead in creating 
the political space for re-engagement with Russia on nuclear 
threat reduction.
    Despite all of our differences with Russia, we still have 
an existential common interest in preventing a nuclear weapon 
from being used by accident, mistake, or blunder. Congress 
should work with the administration to encourage the resumption 
of dialogue and negotiations in multiple channels: 
diplomatically, militarily, and among legislative leaders on 
both sides.
    Second, Congress should work to increase leadership 
decision time for nuclear use by supporting the removal of 
nuclear weapons from prompt launch. Our most vulnerable, least 
survivable force, the ICBM force, would be a logical place to 
begin this effort. The United States and Russia should move on 
this together.
    Third, the United States does not need to build or deploy 
new low-yield weapons. We have a robust nuclear deterrent 
today, one that is capable of being used anywhere on the globe. 
Deploying new low-yield weapons lowers the threshold for 
nuclear use, increases our reliance on nuclear weapons, and 
undermines U.S. efforts to prevent the further spread of 
nuclear weapons. It is folly to bet our children's future on 
the premise that a use or exchange of nuclear weapons could 
remain limited and controllable.
    Fourth, Congress should encourage the administration to 
extend New START this year.
    And fifth, and finally, on nuclear use policy, Congress 
should consider legislation to ensure that any decision to 
authorize the use of a nuclear weapon is deliberate, 
justifiable under international law, and consistent with 
authorities granted in the Constitution. Legislating a 
congressional role in the authorization of the use of nuclear 
weapons, in particular one that would limit the executive 
branch's ability to use a nuclear weapon first, is one option 
that should be considered.
    I will stop here, and look forward to taking your 
questions. Thank you.
    [The prepared statement of Ms. Rohlfing can be found in the 
Appendix on page 57.]
    The Chairman. Thank you.
    Dr. Blair.

   STATEMENT OF BRUCE G. BLAIR, RESEARCH SCHOLAR, PROGRAM ON 
       SCIENCE AND GLOBAL SECURITY, PRINCETON UNIVERSITY

    Dr. Blair. Chairman Smith, Ranking Member Thornberry, and 
other distinguished members of this committee, thank you very 
much for the invitation to appear here today. It is a great 
honor for me to testify.
    Like many other Americans of my generation, I first learned 
about nuclear weapons in 1962, when President Kennedy 
threatened the Soviet Union to--that we would unleash our 
nuclear might against them if they were to launch nuclear 
weapons from Cuba against the United States. At that time it 
was quite reassuring to me to hear that we had a secure second-
strike force capable of inflicting unacceptable damage in 
retaliation to such an attack.
    Now I first learned that simply being able to destroy 
Russia as a viable country was not, in fact, the reality of our 
nuclear weapons policy when I became a nuclear missile launch 
officer and a support officer for the Strategic Air Command's 
Looking Glass airborne command post. Our planners saw nuclear 
weapons quite differently. They saw them as tools for the 
actual or coercive use during a nuclear conflict, primarily to 
destroy the deterrent capabilities of the Soviet Union and 
China/North Korea.
    This warfighting strategy thus ran contrary to and 
contradicted the idea of stability based on mutual deterrence, 
which is the very foundation of our nuclear security. And as we 
tried to neutralize each other's second-strike forces, we 
managed only to fuel an arms race and increase the chances of 
nuclear war by design or by accident.
    Thousands of U.S. and Russian strategic nuclear weapons 
aimed largely at each other stood--and still stand today--ready 
for immediate first use or launch on warning. Back then, as 
now, the President would have just a few minutes to authorize 
launch on warning, on the basis of enemy attack indications 
that could be false or misleading, and today possibly caused by 
cyber interference.
    We heard during the opening remarks about false alarms 
during the Cold War. None of them rose to the level of a 
President of the United States. Over the last 10 years we have 
had, on multiple occasions, ambiguous ballistic missile threats 
that have risen to the level of Presidents. So this is not a 
historical concern.
    Our and Russia's hair-trigger launch postures, driven by 
vulnerabilities of our own making, continue to run the risk 
that fear, miscalculation, misperception, accident, or false 
warning could trigger a nuclear exchange. As you have heard--
and I agree--the risk of blundering into nuclear war presents 
what is, by far, the greatest immediate threat to the United 
States today.
    So what do we do? I agree with all the suggestions that I 
have heard from Joan. But I would also propose that we return 
to first principles, and design for ourselves a posture for 
assured retaliation that is smaller, but is more survivable and 
more stable than the one we presently have and the one that we 
currently plan to have.
    This posture would hold at risk Russia's, China's, and 
North Korea's key elements of state power, economy, and 
leadership. It would require, by my estimation--and I think the 
Pentagon planning is in--aligned with this--it would require 
covering about 450 aim points in those 3 countries, coverage 
that, in my view, would easily meet any reasonable judgement of 
actual deterrent requirements.
    But pivoting away from targeting opposing forces and from 
the fantasy of controlling and dominating nuclear escalation 
would allow us to eliminate most of the 4,000 weapons in the 
current active stockpile. Only five or six of the planned 
Columbia-class submarines would be needed to be built. That is 
it.
    All other existing and planned U.S. nuclear weapons could 
be scrapped. This would mean eliminating the land-based missile 
force, the ICBMs. But it is a vulnerable force that weakens, 
not strengthens the triad. We are better off without it.
    If you want a stable triad that includes land-based 
missiles, then a mobile basing mode is required. Are you 
prepared to go that way?
    The most important project in this modernization program 
should be fixing our vulnerable command, control, 
communications, and intelligence systems, C3I. It has always 
been the Achilles heel of our posture. It would likely collapse 
within hours into a nuclear conflict. So fixing this is 
essential for any strategy, including assured retaliation, and 
for enabling the President to intelligently choose a response 
if deterrence should fail.
    So instead of modernizing the--all three of these legs, I 
think it is most important that we--as Joan indicated--increase 
Presidential decision time. That should be our top priority.
    And last but not least, pivoting away from warfighting 
means recognizing that the sole purpose of nuclear weapons is 
to deter their use by others. It is not to deter conventional 
aggression. We have ample capabilities with our allies to 
deter, defeat, and punish conventional aggression.
    And the flip side, the operational side of sole purpose, is 
no first use. No first use is axiomatic and true deterrence 
because it means threatening to respond to an attack, not to 
initiating one. No first use is further justified by the 
absence of foreseeable scenarios, in my view, that would ever 
motivate a U.S. President to use nuclear weapons first.
    Let me close there, and thank you for your attention and 
look forward to questions, discussion.
    [The prepared statement of Dr. Blair can be found in the 
Appendix on page 69.]
    The Chairman. Thank you.
    Mr. Miller.

STATEMENT OF HON. FRANKLIN C. MILLER, PRINCIPAL, THE SCOWCROFT 
                             GROUP

    Mr. Miller. Chairman Smith, Ranking Member Thornberry, 
members of the committee, I appear before you today in my 
capacity as a private individual, not representing or speaking 
for any other individual, institution, or entity. And the 
answers and positions I take before you reflect solely my 
personal views, except when I quote specifically official U.S. 
policy.
    I thank you for inviting me to discuss a subject to which I 
have dedicated my entire professional life, and I spent most of 
three decades actively formulating deterrence in defense policy 
in the Department of Defense and at the National Security 
Council.
    In the two Bush administrations I led reviews that lowered 
the number of U.S. strategic nuclear weapons by 65 percent and 
37 percent, respectively. Those reductions created the START II 
Treaty, enabled the 2002 Moscow Treaty, and resulted, 
cumulatively, in about an 80 percent cut from U.S. force levels 
in 1989.
    So I sit before you this morning as neither an advocate of 
massive arsenals, nor an opponent of arms control. My principal 
purpose this morning is to distinguish fact from rhetoric and 
fiction.
    For starters, the nuclear deterrence policy and posture of 
the United States today is squarely in the mainstream of U.S. 
policy as it has existed in Democratic and Republican 
administrations for over almost 60 years. That policy and that 
posture is premised on the firm belief that a nuclear war 
cannot be won and must not be fought.
    That recognition on our part, however, is not sufficient. 
It is essential that potential enemy leaders understand and 
accept that, as well. And the greatest risk of nuclear war 
today lies in a potential enemy leadership miscalculating and 
believing it can carry out a successful attack against 
ourselves or our allies.
    As a result, U.S. policy seeks to deter, to prevent nuclear 
and major conventional attack against ourselves and our allies. 
It is not what some call a warfighting policy. It is a 
deterrence policy.
    Deterrence rests on the premise that we will maintain the 
capability to retaliate against the assets which potential 
enemy leaders value most. In the case of Russia and China, 
those valued assets are the elements of state power: the senior 
leadership itself; yes, their military forces; their internal 
security forces; their ability to command and control their 
nation; and the industrial potential to sustain war.
    For almost 60 years the United States has accomplished this 
goal principally by maintaining a triad of nuclear forces 
undergirded by a command and control infrastructure in a 
nuclear weapons complex. And that triad has been recognized by 
all administrations since President Eisenhower, Democratic and 
Republican alike, as unique and vital. Its combination of three 
basing modes, each with unique strengths and different but 
offsetting vulnerabilities, separate attack azimuths, and 
complementary alert postures, presents potential enemy offenses 
and defenses with insurmountable obstacles. It is that 
combination which provides for deterrent stability, because an 
aggressor cannot preemptively destroy the triad or prevent the 
retaliation it would impose. That is why it is the underpinning 
for our nuclear forces today.
    And Mr. Chairman, you mentioned Secretary Mattis's doubts 
about the triad when he came to office. But this is what the 
nuclear posture--as you said, using Secretary Mattis's voice, 
``I have questioned the triad and I cannot solve the deterrent 
problem reducing it from a triad. I have been persuaded that 
the triad, in its framework, is the right way to go.''
    Due to deferrals of modernization that should have started 
about 15 years ago, our nuclear forces are well beyond their 
expected service lives, and they must either be modernized or 
retired. History has demonstrated that modernization is the 
surer path towards limiting the chances of nuclear war.
    There are two fundamental facts with regard to that 
modernization I would like to point out to the committee. 
First, the U.S. program is not creating a nuclear arms race. 
Russia and China began modernizing and expanding their nuclear 
forces in the early 2000s, and they have been and continue to 
field many new and advanced nuclear systems.
    In sharp contrast, the United States will not begin to 
field replacements for its Cold War-era triad until the mid to 
late 2020s. And any notion, therefore, that the U.S. 
modernization is spurring a new arms race is counter-factual 
and wholly without merit.
    Second, modernizing the triad is eminently affordable. 
Critics of modernization have dramatically inflated that cost, 
throwing around a 30-year life cycle to produce a sticker 
shock.
    The truth is that the cost of maintaining the nuclear 
modernization program, even when in full swing by the 2020s, is 
not expected to exceed between 3 to 4 percent of the defense 
budget. When including the cost of operating the deterrent, the 
total cost of protecting America and our allies from nuclear 
and major non-nuclear attack is between 6 to 7 percent of the 
defense budget, not too much to pay to prevent an existential 
threat.
    I look forward to elaborating on these points and other 
topics of the committee. In particular, I look forward to 
elaborating on why the concepts of de-alerting our nuclear 
forces and adopting a policy of no first use, while of 
superficial and popular appeal, will in fact produce 
instability, undercut deterrence, and cause great concern among 
U.S. allies, while having no effect on Russia or China.
    Importantly, I look forward to discussing arms control, the 
New START Treaty, the INF Treaty, and I look forward to 
discussing why the introduction of a small yield--a small 
number of low-yield Trident warheads into our force is so very 
important today. I cannot think of another weapons system in 
the recent past which is so misunderstood, mischaracterized, or 
demonized as the low-yield Trident.
    I have submitted formal written testimony to the committee 
and respectfully request that it be included in the record.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 87.]
    The Chairman. Thank you. I have more questions than I have 
time for. I will try to be quick about it.
    On the triad issue, the ICBMs are stationary, they are 
easily identifiable by the enemy, in terms of knowing where 
they are. And also, since they are not as survivable as, you 
know, the bombers and the nuclear subs, which can--which they 
will not know where they are, in all likelihood, you know, if 
they are launched on, it is sort of use it or lose it at that 
point. If you think there is missiles coming in, you had better 
launch them, or the ICBMs are gone.
    So what exactly do the ICBMs add to that deterrence? And I 
completely agree with you, we have to have the capability that 
they know that even if they try and strike us, that they can't 
take out our weapons. That is the beauty of the submarines and 
the bombers, is that they are far easier to conceal. But what 
exactly do the ICBMs add to the deterrents?
    Yeah, I will start with Mr. Miller and then go to Dr. 
Blair.
    Mr. Miller. Thank you, sir. First of all, I point out that, 
on a day-to-day basis, we only have two legs of the triad. The 
bombers are not on alert, they are not armed, and so you are 
basically dealing with ICBMs and submarines.
    Second, we don't have a launch under--attack launch-on-
warning posture that the deterrent relies upon.
    Many, many years ago we came up with plans and procedures 
so that the President has the option to launch ICBMs or not. 
But our deterrent does not rely on launch on warning.
    The Chairman. Right.
    Mr. Miller. Third, 400 ICBM silos scattered across the 
United States. If an enemy wants to neutralize those, that 
means putting at least 400 to 800 warheads in the air. There is 
no question that that is a massive attack on the United States, 
which will draw a massive response. And that is an important 
indicator of what is going on in the world at that time.
    And last, the ICBMs are single-warhead systems. So that 
provides flexibility in a crisis, as a single warhead.
    The Chairman. Dr. Blair.
    Dr. Blair. As Frank mentioned, we actually have a monad 
today because the bombers are off alert and vulnerable. The 
ICBM force is vulnerable, and offers nothing to second-strike 
deterrence. Our second-strike deterrence capability resides 
entirely in our submarine force at sea.
    What is worse is that it not only doesn't contribute to 
deterrence as the way I define it, as opposed to, let's say, 
the use of those weapons in a first strike, in a warfighting 
capacity, that those weapons on hair-trigger alert--and I will 
define that, if you would like, because I use the term in a 
very specific sense--create pressure on the President to 
consider the launch of those weapons very quickly, if there are 
indications of an attack against North America.
    And I use the term ``hair-trigger'' in the following sense.
    First, those Minuteman missiles are armed, they are 
targeted, they are fueled, and their gyroscopes are spinning. 
And they will fire instantly upon receipt of three short bursts 
of computer code. The weapons themselves, they will fire if 
they get that code. Hopefully, it only would come from 
authorized sources directed by the President.
    Secondly, because of the pressure to use or lose those 
forces, we would start a launch emergency procedure involving 
the President that--it is almost like, you know, showdown at 
O.K. Corral at high noon. You get indications of a possible 
attack against us, or even a flinch or a false alarm, a process 
begins that I describe as the rote enactment of a prepared 
script. There is no deliberation involved.
    The Chairman. I have got to move on, because I want to get 
some other people.
    Dr. Blair. Right, okay.
    The Chairman. Dr.----
    Dr. Blair. Sorry.
    The Chairman. Ms. Rohlfing, sorry, do you have anything?
    Ms. Rohlfing. Thank you. So I would go back to first 
principles, and just note that we, as a nation, ought to be 
really focused on preventing the risk of use of nuclear 
weapons. And when I evaluate the ICBM leg of the triad, I am 
concerned about its lack of survivability.
    And I agree with Bruce. The fact that they are use it or 
lose it weapons puts pressure on a decision maker to make a 
rapid decision in a very short amount of time----
    The Chairman. And I think that that is the ultimate 
question from all three. There is not a lot of disagreement 
here, in terms of what the purpose of the nuclear weapons are. 
The question is how much is enough. And that is really what I 
am debating.
    And yes, when you look at the number of nuclear weapons 
that we had during the height of the Cold War, we have a lot 
less now. But the number of nuclear weapons we had during the 
height of the Cold War--and this may be--it was enough to, 
like, destroy the world, like, seven times over or something.
    So, you know, a nuclear weapon packs a hell of a lot of 
punch. And China's approach--and I know they are modernizing 
their force, but China has less than 300 nuclear weapons, and 
they figure that is enough to inflict an enormous amount of 
damage on anyone who would try to attack them, enough to 
discourage them. And that is what I question.
    And I know the New START Treaty has pulled it way down. I 
think the number is 1,550 delivery systems. But keep in mind 
delivery systems--there is an unlimited amount of weapons that 
you can have in storage. There is no limit on that. These are 
merely the ones that are ``deployed.''
    So you got 15--and also 1,550 delivery mechanisms. That is 
not 1,550 warheads. It can be more warheads than that.
    So--and I guess, Mr. Miller, I will close with you and two 
questions. One, 1,000 nuclear weapons, I mean, that is a pretty 
powerful amount, in and of itself. And we have a lot more than 
that. What is the calculus that says that we need more than 
that?
    And then I will ask you a quick question about the low-
yield thing.
    Mr. Miller. The calculus as to what it takes to deter is 
something that is worked out by Strategic Command and given to 
the President through the Secretary of Defense, based on what 
are the strategic valued assets of the Russian and Chinese 
leaderships, not mirror imaging what we hold dear, but what 
they hold dear, what----
    The Chairman. See, do you think that we couldn't 
sufficiently discourage that? I mean if we dropped 100 nuclear 
weapons on Russia, that wouldn't be enough of a discouragement?
    Mr. Miller. I think that the Russian leadership looks at 
nuclear war differently than we do. And I am not going to give 
you a number. You can always say take the 10 least important 
weapons off. I mean I did that. I cut the force dramatically 
in----
    The Chairman. You did.
    Mr. Miller. But the question is what do you need to hold 
that risk? And I think the current answer is what you get from 
Strategic Command. It is what you need to hold Russia and China 
and a reserve force for other contingencies.
    The Chairman. Just quick--one thing I have learned on this 
committee is within the Defense Department and within the 
people who make the weapons and lobby them, I have never had 
them come up and say, ``We are good, don't buy any more.'' 
There is a certain bias built into that system that says we 
always need a little more.
    And to some extent, as chairman of the committee, that is 
something I am trying to do differently. I have been here for 
22 years, and that is what we do. We come in, oh my gosh, we 
are not ready. We need more, more, more, more, more.
    So I hear what you are saying. But I have seen that bias 
over and over again. So I want that bias balanced against some 
actual numbers. And, you know, when I asked you if 100 nuclear 
weapons would discourage Russia, the look on your face was 
basically yes. I mean you didn't say it, but, you know, that is 
a pretty powerful punch. So that is what I am trying to balance 
out.
    Now, quickly on the low-yield thing, the problem with the 
low-yield thing is when you start contemplating--the argument 
is you contemplate the discussion that you could win a 
nuclear--that you could launch a low-yield nuclear weapon and 
it wouldn't trigger a catastrophic response. Okay? I don't 
agree with that.
    Mr. Miller. I don't, either.
    The Chairman. I think it is unbelievably risky if you----
    Mr. Miller. I agree with that.
    The Chairman. So the benefit of a low-yield nuclear weapon, 
supposedly, is, well, if they hit us with a low-yield, we can 
have a proportionate response.
    When it comes to nuclear deterrents, I don't really care 
about a proportionate response. I think we need to make it 
clear if you use a nuclear weapon, it is a nuclear weapon. And 
if the smallest thing we have is bigger than the one you 
launched at us, well, too damn bad. Okay? We are going to hit 
you with it.
    So I don't get the notion that a low-yield nuclear weapon 
does anything other than potentially make people think wrong, 
and doesn't add anything to our deterrent capability.
    Mr. Miller. Well, back to the broad discussion, Congressman 
Smith, I agree with that. You and I may absolutely agree on 
that point.
    But I think where we start is the fact that, beginning at 
the--in the late 1990s, early 2000s, the Russian military 
devised a strategy for the use of low-yield nuclear weapons to 
win on the battlefield. They then went out and bought new 
weapons to carry out that strategy, and they have practiced 
that strategy. And they did all of that in the face of our 
existing triad----
    The Chairman. Got that. Sorry to interrupt, but why don't 
we tell them that, okay, if you do that, we are going to hit 
you with a nuclear weapon----
    Mr. Miller. Well, again----
    The Chairman [continuing]. And we don't care what size it 
is.
    Mr. Miller. My point is they seem to be convinced that 
they--that there was a gap in our deterrence structure, and 
that they spent a lot of money to go out and build these 
weapons.
    Now, deterrence is about getting in the mind of the other 
person. Not in your mind, sir, or in mine. And if they spent 
that money, and if they have exercised it, and if they have 
threatened it, the point is to have something that goes back 
and says, ``We are not going to match your whole theater 
nuclear force structure. We are going to have a small number of 
these weapons that can respond to meet what you thought was a 
deterrent gap.'' That is all.
    Don't go there in the first place, don't use a nuclear 
weapon, because it could escalate out of control. Are you 
prepared to bet Mother Russia on a small piece of Latvia?
    The Chairman. All right, fair enough. I have got to get to 
Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. And Mr. Miller, I 
thought that was a helpful conversation.
    One of the largest problems we have, I think, in thinking 
about nuclear deterrents, is that credibility is in the mind of 
the adversary. And we can make all sorts of proclamations, and 
we can sign all sorts of pieces of paper and do all sorts of 
things, but it--the question is what is in their mind, in their 
calculation, what do they see as vulnerabilities, and what do 
they see that they can get away with. If they think we are just 
a little bit better than they are, then the tendency is to test 
it. If we are a whole bunch better than they are, then you have 
less of a tendency to test it. At least that is part of my 
theory.
    I may stretch you for a second in going back in history, so 
tell me if you are not comfortable with this. Ms. Rohlfing 
talked about coming--working on the committee during Les--
Secretary Aspin's time. My staff time in Washington goes back a 
little further than that, when Glickham and Pershing II 
deployments were being debated. And it--I am struck by the 
fact, with all of this debate on the INF Treaty, that so little 
discussion occurs around the vicious opposition that President 
Reagan got to deploying the intermediate-range systems in 
Europe to begin with.
    We heard a lot of the same arguments: ``Well, this will 
lower the threshold of nuclear weapons,'' ``This is provocative 
to the Russians,'' even though the Russians already had their 
systems there. All sorts--that there is less flying time, so 
that will make it more likely that there will be a nuclear 
exchange.
    There were demonstrations here, demonstrations in Europe--
some of which we later found out were paid for by the KGB 
[Soviet Committee for State Security], by the way--but the 
tremendous opposition to those deployments. And yet NATO [North 
Atlantic Treaty Organization] stuck together, NATO deployed 
those systems, and it was only because NATO deployed the 
systems that an INF Treaty was able to be signed by Reagan and 
Gorbachev.
    I would be interested in your historical reflection, 
because sometimes I think we get the cart before the horse. We 
think the paper is the thing that matters, but what really 
matters is the military strength that leads both sides to 
believe that it is in their best interest to sign some sort of 
treaty, or reach some sort of agreement. To me, that is the 
lesson of INF.
    But again, I am stretching you. I don't know. We didn't 
talk about this. Do you have reflections over your 30 years?
    Mr. Miller. Mr. Thornberry, I think you are right. I think 
that was an interesting time, when the Russians thought they 
could intimidate the NATO allies and that they could break the 
consensus on deployments.
    What I find disturbing is that, in a period where after the 
Bush 41-Gorbachev initiative, where we virtually eliminated our 
theater-based nuclear forces, the Russians who had signed that 
same pledge decided in the late 1990s to start building those 
forces up.
    Again, one can say that the Russians are foolish, that they 
waste their money, that this is a wrongheaded thing, that the 
leadership didn't know what the military was doing. I don't 
believe any of that. What I am concerned about is the Russian 
military believes that there are advantages that they could 
obtain by putting those weapons in the field and threatening 
our allies.
    So again, a small deterrent capability in the form of a 
limited number of low-yield Trident, I believe, answers that 
without having to return to a whole panoply of theater nuclear 
weapons to defend the alliance. And I think the lessons apply. 
Yes, sir.
    Mr. Thornberry. Thank you, Mr. Chairman. I will give other 
folks a chance.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you for 
the witnesses and, you know, very thoughtful hearing, 
important, because the Nuclear Posture Review kind of came over 
late last year, and it really, I think, had some substantive 
changes that really need to be drilled down and explored much 
more deeply.
    And one point I just would like to get clarification from 
you, Mr. Miller, is that, you know, as Ms. Rohlfing said, New 
START, the clock is ticking, in terms of its expiration. Do you 
support extending New START?
    Mr. Miller. I believe that New START is a necessary, but 
not sufficient approach to our current condition.
    If I could describe, New START caps the traditional 
strategic forces of both sides. New START does nothing to cover 
the threat of the exotic weapons that Mr. Putin has been waving 
around. New START does nothing to cover the short-range threat 
to our allies.
    I would like to see New START extended in the context of a 
new negotiation which captures all U.S. and Russian nuclear 
weapons of all ranges and all types. That, I think, would cover 
our security----
    Mr. Courtney. Well, actually, I think there would probably 
be agreement across the table about the fact that New START 
should be enhanced, as well as extended. But, I mean, frankly, 
I think we are--with this administration, I mean, we may be 
looking at a situation where there is no effort made to extend 
it. And I just think it is important to really emphasize that, 
you know, that is a foundational backdrop to this, you know, 
nuclear posture policy of the country.
    In terms of low-yield, which, again, was really, I think, 
one of the real differentiating aspects of the review that came 
over last year, you know, coming from a district where there is 
a submarine force, and talking to folks there--and maybe, you 
know, I will talk to one of the other witnesses about this--is 
that--I mean one of the concerns that I have heard is just that 
if you have got a submarine out there that has got, you know, 
sort of mixed and matched missiles, in terms of low-yield/high-
yield, if the decision is made to fire one of those, it is 
really--for the adversary, it is impossible to determine what 
kind of missile is coming at them. I mean they are not sort of 
color-coded.
    And I guess, you know, again, Ms. Rohlfing, I just sort of 
wonder if you would sort of talk about, you know, that question 
about whether or not you can really control a nuclear conflict 
once the missiles start flying, regardless of whether they are 
high-yield or low-yield.
    Ms. Rohlfing. Thank you. I want to reply and say, first of 
all, I don't believe there is a deterrence gap at low-yield. We 
have other low-yield options in the arsenal. And even setting 
that aside, I think our deterrent today is robust, 
comprehensive, and is perfectly capable of deterring a nuclear 
attack at any yield.
    So you raised the question of could an adversary 
discriminate, if we were to launch a submarine-launched 
ballistic missile, whether it is a low-yield or a regular-yield 
weapon, and the answer is no. I think, from the standpoint of 
watching an incoming launch, our adversary would expect--would 
have to anticipate that it is a regular--that is, high, you 
know, highly capable weapon, capable of enormous destruction. 
So that is another issue.
    But I think we are also focused on the wrong question here. 
We are putting so much emphasis into figuring out what does it 
take to persuade the adversary that we have a credible 
deterrent. And while that is certainly important, I believe we 
have today a robust comprehensive deterrent. I believe that a 
reasonable modernization program can sustain that deterrent 
over time, and we need to step back and balance our investments 
in our deterrent force against not only other needs of the 
Defense Department and our military, but also we need to look 
at the implications of our current posture for increasing the 
risk of use and the spread of these weapons.
    Mr. Courtney. Thank you.
    And actually, just to follow on that point--and you know, 
again, Dr. Blair, you talked about a possible smaller fleet of 
subs, of SSBNs [ballistic missile submarines]. I think it is 
important to note that the fleet today is 14 SSBN Ohio-class. 
They are going to be over 40 years old. The hull life is giving 
out. So, I mean, it is really not even a question of nuclear 
policy, it is really a question of just--you know, they are not 
going to be safe for sailors.
    And the number of subs that are going to replace it is 12, 
so we are actually reducing the fleet from 14 to 12, and 
reducing the missile tubes from 24 to 16. I mean if you do the 
math, I mean, we are actually going to have a smaller fleet. 
But maintaining that second-strike capability does seem to be 
somewhat of a consensus issue here. I just wanted to make that 
point before yielding----
    The Chairman. The gentleman's time has----
    Mr. Miller. Mr. Courtney, may I make a factual----
    The Chairman. The gentleman's----
    Mr. Miller. May I make a factual statement?
    The Chairman [continuing]. Time has expired. I am sorry.
    Mr. Miller. A factual statement, may I, please?
    The Chairman. Oh, sure. But I just--I try not to do this, 
because if this happens we wind up in big trouble. Go ahead.
    Mr. Miller. Mr. Courtney, right now the Trident force 
carries two different types of warheads. One, a W76 warhead, 
and a W88 warhead, a much larger warhead. So if you are talking 
about discrimination problems, that exists right now today.
    The Chairman. Thank you.
    Mr. Miller. And it is contextual.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank all of our 
witnesses for being here today.
    And Mr. Miller, I want to thank you for your decades of 
service with the Department of Defense and the National 
Security Council. And with your background, in your testimony 
you identified the overall age of our nuclear deterrent 
capabilities as a weakness in the strategic triad, and argue 
for the modernization of nuclear forces.
    U.S. nuclear weapons are surpassing their intended service 
lives, with the average age of our nuclear warheads at 26 
years.
    The Nuclear Posture Review addressed the importance of 
tritium production and the increase of pit production to 80 
pits per year by 2030. Both of these critical missions are 
connected to the Savannah River Site that I am very grateful to 
represent.
    What negative impacts do you see if the U.S. fails to 
modernize our nuclear inventory?
    Mr. Miller. Mr. Wilson, the United States today is the only 
nuclear weapon state that cannot produce a nuclear pit to be 
placed into the operational force. The nuclear enterprise, run 
by DOE [U.S. Department of Energy], is on its back legs. It 
is--it desperately needs to be modernized. We need to be able 
to replace weapons, some of which are 60, 70 years old, in the 
arsenal. So the infrastructure in DOE must be upgraded, or the 
deterrent over time will not have credibility.
    Mr. Wilson. And then that relates to the next question, and 
the National Defense Strategy rightfully addresses the great 
power competition and dynamic threats the U.S. faces. I believe 
this provides a clear path for the U.S. to modernize, reform, 
and build partner capacity through an emphasis on peace through 
strength. Deterrence, specifically nuclear deterrence, is 
critical to protect the U.S. and our allies across the globe by 
projecting strength.
    Can you discuss how essential it is for a nuclear triad to 
maintain both a first- and second-strike capability, with a 
flexible response option? How does this deter a massive 
conventional or nuclear attack by the enemy?
    Mr. Miller. I think that the triad, in its overall 
strength, as I have described earlier, is capable of deterring 
a massive Russian or Chinese attack.
    I believe that our capability to respond flexibly is 
necessary to assure our European allies that a Russian land 
grab, where they have conventional superiority to date all 
along the NATO-Russia border would not succeed, and it could 
not succeed because they can't use a nuclear weapon to cement 
their victory. So they--the tie between our strategic forces 
and the defense of NATO is, I believe, a critical element of 
our deterrence.
    Mr. Wilson. And the deterrence is so absolutely critical.
    In 2016 the Secretary of Defense, Ash Carter, and General 
John Hyten both testified that funding for nuclear weapons 
modernization of the nuclear triad was affordable. Secretary of 
Defense James Mattis then made it his number one priority, 
since our inventory has atrophied.
    Can you discuss how modernizing our nuclear triad over 30 
years is a minimal percentage of the defense budget and explain 
the urgent need for the investment in our nuclear inventory?
    Mr. Miller. As far as the urgency, as Mr. Courtney pointed 
out, the submarines are getting old and will, at some point in 
the 2020s and beyond, have to be retired, one by one. They are 
not safe to operate.
    Minuteman systems are about 1970s vintage. They have been 
upgraded, but they are to the point where they can't be 
upgraded. The air-launched cruise missile, introduced in 1980, 
had a projected service life of 10 years. So the modernization 
of the force is critical. You either have to modernize it or 
retire it. You can't afford to retire it.
    And even the CBO [Congressional Budget Office] agrees that 
the full modernization program in the 2020s is going to cost 
between 6-7 percent of the defense budget.
    Mr. Wilson. And----
    Mr. Miller. Six to seven percent.
    Mr. Wilson. And it should be known by the American people 
that the Russian state-owned media has reported that hypersonic 
missiles that Russia is developing would be able to hit 
multiple sites in the United States, and they actually 
identified Maryland, California, and Washington. These threats 
only reinforce the need for an effective deterrent strategy.
    General Hyten recently testified to the Senate Armed 
Services Committee that our defense against hypersonic missiles 
is our nuclear deterrent. What component of the nuclear triad 
is most in need of modernization to counter and deter the use 
of hypersonic missiles?
    Mr. Miller. I don't think any--again, sir, each leg is 
getting to the end of its service life. If you believe in a 
triad--and I do--because we didn't do it during the George W. 
Bush administration, the force needs to be modernized. The 
entire force needs to be modernized.
    Mr. Wilson. And again, I appreciate your efforts, because 
it is so clear it is peace through strength. And it comes 
from--and Congressman Thornberry has identified how that has 
been successful in the past. Thank you very much.
    The Chairman. Thank you.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Mr. Miller, you stated that a no first use policy would be 
destabilizing. In other words, would create a higher likelihood 
of nuclear conflict. Why is this the case?
    Mr. Miller. I think there are four points, Mr. Moulton.
    The first is our allies have, for decades, depended on a 
U.S. policy that we would escalate to nuclear use to end a 
conventional war in Europe. If we were in these very tumultuous 
transatlantic times to remove that guarantee, we would cause 
allies to doubt the U.S. guarantee of their safety.
    Second, because some of those allies can build their own 
nuclear weapons, if we remove that guarantee, we could well 
lead to the proliferation of nuclear weapon states in the 
world.
    Third, we are not going to change Chinese and Russian 
views. The Russian view is first use. The Chinese say they have 
a no first use policy, but there is enough intelligence to 
indicate that that is a very questionable condition, and it 
could change in a moment, with an authoritarian government.
    And fourth, there is absolutely no reason in the world why 
the Russian or Chinese leaderships would believe in a no first 
use pledge on our part. So it wouldn't have any effect in 
managing a crisis. Those are the four reasons no first use 
makes no sense.
    Mr. Moulton. Ms. Rohlfing, how would you respond to Mr. 
Miller's argument? I hate the idea that a single person, 
especially this President, could make a decision to launch 
nuclear weapons in a matter of minutes. But how else do we 
defer a--we deter, rather, a preemptive attack on us?
    Ms. Rohlfing. So I think no first use is the right goal. It 
is the right aspiration for United States policy.
    Mr. Moulton. Well, it is wonderful if it is an aspiration, 
but we live in a real world, where we have an adversary that 
advocates first use. So how do we deter first use----
    Ms. Rohlfing. So I think we need----
    Mr. Moulton [continuing]. Without having that in our----
    Ms. Rohlfing. You know, we need to step back and think 
about, again, what are the consequences of continuing with a 
first use policy, in terms of implications for the spread of 
these weapons to other states, in terms of increasing the risk 
of use----
    Mr. Moulton. That is all well and good, but that is not my 
question, Ms. Rohlfing. My question is how do you deter a 
preemptive attack from an adversary that has a policy of being 
open to first use, if you do not--if you require----
    Ms. Rohlfing. So----
    Mr. Moulton [continuing]. Congressional authorization for a 
response?
    Ms. Rohlfing. We have a policy of deterrence, and we have 
the world's most powerful conventional forces. We also have 
said that we will retaliate using nuclear weapons.
    Mr. Moulton. Okay, I mean----
    Ms. Rohlfing. That is a----
    Mr. Moulton. I just don't----
    Ms. Rohlfing [continuing]. That is a very solid deterrent--
--
    Mr. Moulton. The argument that--so we respond to a Russian 
first use, a massive attack, with conventional forces? I mean 
it just seems totally unrealistic. Now----
    Ms. Rohlfing. Well, that is where our policy of retaliating 
comes in. I mean that is at the heart of our deterrent----
    Mr. Moulton. Okay, so let's get to the heart of that. You 
have criticized ICBMs as a ``use it or lose it weapon.'' But 
isn't that the fundamental purpose, that if the Russians were 
to launch a massive attack on our ICBM force, we would, in 
fact, respond immediately? And that is what prevents, that is 
what deters that attack?
    Ms. Rohlfing. So the issue with ICBMs is twofold. One is it 
increases the risk of use, because these are weapons that, 
because they are so vulnerable, decrease crisis stability and 
could invite an attack.
    And, by the way, I would just----
    Mr. Moulton. How would they invite an attack, Mr. Rohlfing?
    Ms. Rohlfing. Well, because they are sitting-duck targets. 
They are vulnerable. They are not survivable. So we have to 
worry that in today's world, where----
    Mr. Moulton. But the point of having them is that it deters 
an attack because that is how we respond. So if we just get rid 
of them, or we say we are not going to use them on the hair-
trigger we have now, how does that make it less likely for the 
Russians to attack us?
    Ms. Rohlfing. So I think if we could stand down with the 
Russians and, frankly, all other nuclear weapon states, we 
would be in a much safer world.
    Mr. Moulton. Okay.
    Ms. Rohlfing. We would be----
    Mr. Moulton. So I agree with you on that point.
    Ms. Rohlfing. And I think that----
    Mr. Moulton. I mean that is not----
    Ms. Rohlfing [continuing]. Is why we should----
    Mr. Moulton. That is not an answer to my question. But I 
agree with----
    Ms. Rohlfing. That is why we should set it as a goal, and 
work toward it.
    Mr. Moulton. That is wonderful, it is a goal. But we live 
in a real world where the Russians have hundreds of nuclear 
weapons targeted at us, and a policy of being willing to----
    Ms. Rohlfing. Correct.
    Mr. Moulton [continuing]. Use them for--use them 
preemptively.
    Ms. Rohlfing. And I believe the United States threat to 
retaliate using the full force of our nuclear arsenal is plenty 
of deterrent capability.
    I also cannot imagine a world where we, as the world's 
strongest superpower, would be prepared to use nuclear weapons 
first in a preemptive way, and be willing to bear the----
    Mr. Moulton. Well, I agree with you.
    Ms. Rohlfing [continuing]. The opprobrium that would come 
with that----
    Mr. Moulton. The fact--it is pretty clear from this 
discussion that the Russians are less likely to attack us 
because we have ICBMs than if we were to just get rid of them.
    Now, Mr. Miller, with regards to low-yield weapons, you 
stated that the Russians there see a deterrence gap, where they 
don't see it with ICBMs, as we just discussed with Ms. 
Rohlfing.
    But what is wrong with Chairman Smith's argument? You can't 
tell whether it is a low-yield weapon or a high-yield weapon as 
it is being used. If they think that we have a deterrence gap, 
it is about the fundamental willingness to use nuclear weapons. 
It shouldn't matter what size they are.
    Mr. Miller. It--because they have invested so much in a new 
strategy and have fleshed that out with new weapons systems, I 
believe they think we have a weakness in our posture.
    Why would they do this, from a standing start, without any 
good reason? They don't invest money foolishly. And the----
    The Chairman. Sorry, Mr. Miller. I hate to keep doing this 
to you, but we are again over time.
    Mr. Moulton. I think the Russians do invest money foolishly 
sometimes, Mr. Miller. But thank you.
    The Chairman. I am sorry, I have to address a couple issues 
here.
    On the no first use issue, the point there, the reason that 
no first use makes sense is we are saying that the purpose of 
our nuclear arsenal is to stop nuclear war. And I think this 
point has not been yet made at the hearing, that nuclear war is 
one of the few things that can actually destroy the planet. 
Wars are like--stopping us from getting into an all-out nuclear 
war is enormously important.
    Now, I get all the arguments about can you really trust the 
no first use policy, can you--and then back and forth, what 
good is it going to do. I don't agree with the argument that 
somehow there is ever a scenario where we need to use nuclear 
weapons first. I simply don't agree with that. Our nuclear 
weapons should exist to stop nuclear war, not to start it. That 
is the purpose of no first use.
    And as far as the ICBMs, and whether or not they are useful 
or not, the problem with them is they are identifiable targets. 
And also, I don't think they are necessary for deterrence 
because of the submarines we have. And the bombers you 
mentioned, yes, they are not deployed. They are quickly 
deployable, and can be used.
    That is the answers--I think Mr. Moulton raised some very 
good questions, but those are the answers that I think would 
better address that.
    Mr. Turner.
    Mr. Thornberry. Mr. Chairman? Mr. Chairman?
    The Chairman. Sorry, Mac, go ahead.
    Mr. Thornberry. Yeah. And I know it is tempting to get into 
a back-and-forth debate on a whole variety of things.
    I would say, for my standpoint, I don't want to simplify 
the calculations of the Russians on any issue. I--you know, are 
we going to be the first to use nuclear weapons? I cannot 
imagine such a scenario. Do I want to tell the Russians what we 
are never going to do? No. I want them to guess. I want to have 
a wide panoply of nuclear deterrents, and I want to not say 
what we are not going to do, so that they are more cautious in 
making their decisions.
    So I do think--back to the point of getting into the minds 
of the adversaries--I don't want to make that easier.
    The Chairman. Yeah. The only thing I would raise on that 
issue, in the spirit of good conversation here, is that having 
an adversary completely freaked out, not knowing what we are 
going to do with a whole lot of nuclear weapons, and not sure 
when they would use them----
    Mr. Thornberry. I don't want to completely freak them out.
    The Chairman. That has a downside, as well.
    Mr. Thornberry. I want to have uncertainty.
    The Chairman. That is fair.
    Mr. Turner.
    Mr. Turner. Mr. Chairman, I come here usually to hear the 
witnesses testify. If we have every member ask questions and 
then the chairman intervene, I think it is certainly going to 
make for a very, very long hearing. I appreciate----
    The Chairman. It is. I did it once.
    Mr. Turner [continuing]. The time that I have received.
    The Chairman. I apologize. Go ahead----
    Mr. Turner. I do want to associate myself with Mr. 
Moulton's comments and certainly Mac Thornberry's. It is the 
threat, not the use of the weapons that keep us safe. And the 
proof that they have kept us safe, obviously, is that they have 
kept us safe the entire time that we have had the triad.
    So to all of our witnesses, I am going to ask you a series 
of questions and ask if you--I am going to make a series of 
statements and ask if you agree or disagree. They are actually 
fairly simple statements, there is no tricks here.
    And then after we go through these agree or disagrees, then 
I am going to ask for your comments on them, and have a 
discussion with you. But I want to get these agree-disagree to 
see to the extent that we have a disagreement among the 
members.
    My first statement is, over the last 20 years the United 
States has reduced its number of nuclear warheads. Agree or 
disagree, Mr. Miller?
    Mr. Miller. Agree.
    Mr. Turner. Dr. Blair.
    Dr. Blair. Agree.
    Mr. Turner. Ms. Rohlfing?
    Ms. Rohlfing. Agree.
    Mr. Turner. Over the last 50 years the United States has 
decreased its number of nuclear warheads.
    Mr. Miller.
    Mr. Miller. Yes, sir.
    Mr. Turner. Dr. Blair.
    Dr. Blair. Yes.
    Mr. Turner. Ms. Rohlfing.
    Ms. Rohlfing. Yes.
    Mr. Turner. Okay. Over the last 20 years the number of 
nuclear warheads on the planet have increased. Over the last 20 
years the number of nuclear warheads on the planet have 
increased.
    Mr. Miller.
    Mr. Miller. Yes.
    Mr. Turner. Dr. Blair.
    Dr. Blair. Yes.
    Mr. Turner. Ms. Rohlfing.
    Ms. Rohlfing. The total number of warheads----
    Mr. Turner. Yes.
    Ms. Rohlfing [continuing]. On the planet?
    Mr. Turner. Yes.
    Ms. Rohlfing. No.
    Mr. Turner. Over the last 20 years, the number of nuclear 
warheads on the planet has not increased.
    Ms. Rohlfing. Yes.
    Mr. Turner. Yes. Okay. Over the last 50 years, Mr. Miller, 
has the number of nuclear warheads on the planet increased?
    Mr. Miller. No, not given the large--no.
    Mr. Turner. Dr. Blair.
    Dr. Blair. No.
    Mr. Turner. Okay, Ms.----
    Ms. Rohlfing. No.
    Mr. Turner. Ms. Rohlfing, no. Okay. So my next statement is 
a statement based upon the answers that you just gave.
    There appears to be no relationship between the reduction 
of the number of United States nuclear warheads and the 
reduction of the total number of nuclear warheads on the 
planet. You both--all of you just answered yes at the number--
you agreed that the number of nuclear warheads in the United 
States over the past 20 years has decreased, and you have all 
agreed the number of nuclear warheads on the planet over the 
last 20 years has increased.
    Therefore, the conclusion of there is no correlation 
between the reduction of the United States nuclear warheads 
resulting in the total reduction in nuclear warheads on the 
planet. Do you agree, Mr. Miller?
    Mr. Miller. Yes, sir.
    Mr. Turner. Dr. Blair.
    Dr. Blair. I didn't quite follow that. I would have to 
think about that, sorry.
    Mr. Turner. If we reduced our nuclear warheads and the 
total number on the planet did not go down, there is no 
correlation between our reduction of our nuclear warhead 
numbers and the aggregate number on the planet. Correct, Dr. 
Blair? Agree?
    Dr. Blair. I think so, yes.
    Mr. Turner. Yes. Mr. Rohlfing.
    Ms. Rohlfing. I don't buy the logic of it. I think it is 
the wrong----
    Mr. Turner. It is just math, Ms. Rohlfing. It is not logic.
    Ms. Rohlfing. I think it is the wrong question.
    Mr. Turner. It is just math. If our number goes down and 
the number----
    Ms. Rohlfing. I don't dispute the math.
    Mr. Turner [continuing]. On the planet does not go down----
    Ms. Rohlfing. I dispute----
    Mr. Turner [continuing]. There is no correlation between 
the aggregate number----
    Ms. Rohlfing. I dispute the conclusion that you are making.
    Mr. Turner. And that is why I ask these questions, because, 
Ms. Rohlfing, your answer is fantasy. I mean it is absolutely 
total numbers. It is just math.
    Let's go to the next one. Would you rather--if the United 
States was forced to use a nuclear weapon, would you rather 
that the United States use a high-yield nuclear weapon or a 
low-yield nuclear weapon?
    Mr. Miller.
    Mr. Miller. I would rather deter any Russian use in the 
first place.
    Mr. Turner. I am just saying if the United States was 
forced to use a nuclear weapon.
    Mr. Miller. Low-yield.
    Mr. Turner. Would you rather them use a high-yield or a 
low-yield?
    Mr. Miller. Low-yield.
    Mr. Turner. Mr. Miller.
    Dr. Blair.
    Dr. Blair. A nuclear weapon is a nuclear weapon, and a low-
yield weapon is a misnomer, because it is actually a very high-
yield weapon.
    Mr. Turner. So you say there is no difference.
    Ms. Rohlfing.
    Ms. Rohlfing. I agree with Bruce.
    Mr. Turner. That there is no difference.
    The Russian nuclear policy states that they will use 
nuclear weapons to escalate a conflict for the purposes of de-
escalating the conflict. It has been said that the fact that 
they have low-yield nuclear weapons factors into this nuclear 
posture statement, and that it is because they believe that if 
they use a low-yield nuclear weapon and the only thing we have 
to respond with is a high-yield nuclear weapon, that, in fact, 
we would not respond. That, in fact, we would be forced to 
pause.
    Now, Mr. Miller, do you agree with that?
    Mr. Miller. Yes, sir.
    Mr. Turner. Dr. Blair, do you agree with that?
    Dr. Blair. Totally disagree.
    Mr. Turner. Ms. Rohlfing, do you agree with that?
    Ms. Rohlfing. I disagree, as well.
    Mr. Turner. Well, I am going to now do my portion of 
testimony, as the chairman has.
    I agree with Mr. Miller. If you are Putin, and you think we 
only have big ones and we are not going to use them because 
they are big, I think that you actually change the calculus of 
first use for Russia.
    Now, on no first use, since Russia believes in escalating 
to de-escalating, wouldn't our adopting a no first use have no 
effect on their nuclear posture? Because their calculus is use 
to--escalate to de-escalate. So if we say we are no first use, 
it has no calculus in their military strategy to use or not use 
nuclear weapons.
    Correct, Mr. Miller?
    Mr. Miller. That is absolutely correct.
    Mr. Turner. Dr. Blair.
    Dr. Blair. That is right, because the Russians rely on the 
escalation to the use of nuclear weapons to compensate for 
their conventional weakness.
    Mr. Turner. Ms. Rohlfing.
    Ms. Rohlfing. So I am not sure I am following the question 
about the linkage----
    The Chairman. The gentleman's time has expired.
    Mr. Carbajal.
    Mr. Turner. Well, let me just say I agree with Dr. Blair in 
what he has just said, because it is very important that it 
does not affect the Russian calculus if we have no first use.
    Thank you----
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Mr. Miller, you reiterate in your testimony that we have to 
have confidence in our deterrent and potential adversaries must 
have respect for it. Currently, the U.S. nuclear force consists 
of nearly 4,000 deployed and non-deployed nuclear weapons.
    Mr. Miller, do you have confidence in our current 
deterrent, in our retaliatory capability?
    Mr. Miller. I have confidence in it today. I have a lack of 
confidence in it in 10 to 15 years, if those systems aren't 
replaced. Two commanders of Strategic Command, the retired 
admiral--retired previous admiral and currently General Hyten 
say those forces are going to have to leave the inventory, 
replaced or without replacement. That is a simple fact. Not 
modernizing will leave us without a triad.
    Mr. Carbajal. Thank you.
    Dr. Blair and Ms. Rohlfing.
    Dr. Blair. So yes, we have ample forces to underwrite 
deterrence. I think the number of primary aim points in our 
current nuclear planning is on the order of 1,000 aim points in 
Russia, China, and North Korea, in total. And we have at sea in 
our Ohio-class submarine force enough warheads to cover all of 
those aim points.
    So we have the forces, but I do have serious reservations 
and concerns about the viability and performance and resilience 
of our nuclear command and control system. This, as I said in 
my testimony at the opening, has always been the Achilles heel 
of our nuclear deterrent.
    So yes, it is extremely robust, in terms of forces. But it 
is creaky and somewhat fragile and worrisome, from the 
standpoint of command and control.
    Mr. Carbajal. Ms. Rohlfing.
    Ms. Rohlfing. I have confidence in our force today, and I 
think here the issue is not whether or not we modernize. We 
must continue to support a safe, secure, effective nuclear 
deterrent for our security.
    But the issue is, you know, what do we invest in, and how 
much do we need?
    Mr. Carbajal. I am interested to hear from all of you how 
you think Russia and China are perceiving us, the United 
States, moving forward with a significant nuclear modernization 
effort, while at the same time disengaging in the arms control 
front. All of you.
    Mr. Miller. First of all, Russia and China have been 
modernizing their forces for the last 10 years. And they 
continue to do so. We won't have new forces in the field until 
the middle of the next decade, at the beginning. So there is no 
suggestion of an arms race here. Ash Carter, former Defense 
Secretary, said there is a nuclear arms race, it is between 
Russia and China. We are not playing.
    On arms control, and specifically with respect to the INF 
Treaty, the treaty was killed by the Russians. It was a clear, 
cynical act by the Russian Government beginning in about 2013 
to develop and field a system that broke the treaty. And 
despite the fact that the United States has been engaged in 
negotiations with the Russians since 2013 on that, the only 
thing those negotiations have produced is over 100 of these 
treaty-busting SSC-8 missiles in the field. So we didn't 
disengage from the INF Treaty, the Russians killed it.
    Mr. Carbajal. But wouldn't you agree that the INF Treaty 
provides more opportunities than just this treaty to have some 
objectives in it, provides for ongoing communication----
    Mr. Miller. The INF Treaty was a vitally important treaty, 
which the Russians have gone out and killed. We were fully 
within the treaty. We respected the treaty. The Russians 
covertly developed a cruise missile. They tried to hide it from 
us. Our intelligence caught it. There are 100 of these things 
in the field, and the Russians still claim that they are part 
of the treaty.
    Mr. Carbajal. But wouldn't you agree that that was a 
vehicle for ongoing communications, to try to come back----
    Mr. Miller. Until----
    Mr. Carbajal [continuing]. To the table, and to address 
those challenges?
    Mr. Miller. We tried for 5 years under the Obama and Trump 
administrations to engage them in diplomacy in that treaty. And 
all they did was produce more missiles.
    Mr. Carbajal. Well, I disagree with you in that it wasn't 
of utility to continue to stay in it.
    Mr. Blair.
    Dr. Blair. I think we pulled out too abruptly, and it did 
not give an adequate opportunity for further work to try to 
save the treaty, nor did we consult adequately with our allies 
in NATO. So I think that it was a mistake.
    There are consequences from pulling out of these treaties, 
as well. We pulled out of the ABM [Anti-Ballistic Missile] 
Treaty very abruptly in 2002. That was John Bolton's wrecking 
ball for arms control. And, as a result, today we are seeing 
appear on the scene all these novel nuclear weapon systems that 
President Putin has been brandishing over the last several 
months: the hypersonic vehicles, the cruise missiles, the 
undersea autonomous nuclear submarine that can travel for 6,000 
kilometers. All these systems were stimulated by Putin's desire 
to deal with the elimination of the ABM Treaty and develop 
weapons that could defeat it. And it took them about 15 years.
    So we have to keep in mind these timescales. Russia, China, 
the United States, we all know that we have been going through 
overlapping modernizations for, like, 40 years.
    Mr. Carbajal. Thank you----
    Dr. Blair. Every 25 years we all modernize. And as long----
    The Chairman. Sorry, the----
    Dr. Blair. [continuing]. As we keep these weapons----
    The Chairman [continuing]. Gentleman's time is expired.
    Dr. Blair [continuing]. We have to modernize----
    Mr. Carbajal. Thank you, I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this 
hearing. Thank you all, witnesses, for being here. And I would 
like to speak to Ms. Rohlfing and Mr. Miller about the low-
yield option first, and then I have another follow-up question 
for Mr. Miller.
    If we are in a context where a low-yield tactical nuclear 
weapon is used by Russia against us or one of our NATO allies 
or a country under our nuclear umbrella, and we have to use a 
submarine-based response, we cannot make a proportional 
response. So, to me, that leaves only three options: we use a 
conventional response, we use a high-yield nuclear response, or 
we make no response.
    Ms. Rohlfing, do you prefer one of those three options to a 
proportional, low-yield response that we would otherwise have?
    Ms. Rohlfing. I think there is little difference between a 
so-called proportional, low-yield response and a response of 
another kind. I think Bruce hit the nail on the head when he 
said a nuclear weapon is a nuclear weapon, and even these so-
called low-yield weapons are still quite powerful in their 
destructive power.
    So I think we should not be sanguine that a low-yield 
response is not going to yield massive retaliation. And 
therefore, it is very risky. Lowering the threshold for nuclear 
use is risky business, and very destabilizing.
    Mr. Lamborn. Mr. Miller, how do you respond to that?
    Mr. Miller. My response is the Nuclear Posture Review says 
a small number of these weapons will raise the nuclear 
threshold as a matter of official policy, not seek to lower it.
    I think that your description is exactly right. I don't 
think there is any doubt that anybody in this room would 
disagree with the fact of what Bruce said: a nuclear weapon is 
a nuclear weapon. That is a huge, explosive charge.
    Sadly, we are not trying to get agreement among ourselves 
on deterrents. We are worried about the Russian military, which 
has come up with a doctrine and forces and exercises which seem 
to indicate they believe they can use a low-yield nuclear 
weapon. That is my concern.
    Mr. Lamborn. Well, I--and I have to agree with that. If our 
threat of a high-yield response hasn't deterred them for all 
the work that--and money that you say has been invested, why 
would it deter them in the future?
    Mr. Miller, I want to ask you about the triad versus a 
dyad. If we were to get rid of our land-based nuclear missiles, 
the Minutemen, in 3 fields, 450 or so missiles around the U.S., 
and only relied on a dyad of bombers and submarines, would that 
make us more vulnerable because of either a technological 
problem that we had with bombers or submarines that came up in 
the future, or a technological breakthrough on the part of an 
adversary that would make either of those forces more 
vulnerable?
    Mr. Miller. Mr. Lamborn, you have described the reason why 
we have had a triad since the Eisenhower administration, that 
the various potential vulnerabilities of each leg offset the 
other.
    As we were saying, if we only have today ICBMs and SLBMs 
[submarine-launched ballistic missiles] on alert, if there was 
a breakthrough in ASW [anti-submarine warfare], then all you 
have got is the ICBMs. And a massive attack on the ICBMs 
triggers an all-out war, which no one wants to go to. So the 
Russians shouldn't go there. You have described exactly the 
reason for the triad, sir.
    Mr. Lamborn. So you wouldn't be in favor of a unilateral 
disarmament, going from a triad to a dyad?
    Mr. Miller. No, sir. I would maintain the triad.
    Mr. Lamborn. Okay, thank you.
    Mr. Chairman, I yield back the balance of my time.
    The Chairman. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. This has been a very 
important and enlightening hearing. And even though there are 
differences of opinion on these issues, I really respect the 
way they are being discussed. But I think there is an area 
where I can find some common ground, and I want to get back to 
the comments of Dr. Blair, when he talked about the issues of 
miscalculation.
    Just a couple of weeks ago I was in Europe as part of an 
international discussion with Senator Nunn and former cabinet 
officials, international leaders, discussing this issues. So I 
want to just gear in on one specific area.
    What would you say, Doctor, is the importance of 
interagency coordination and communication within the 
administration on these issues? And what is the importance of 
intelligence agencies and the coordination and communication 
and integrity of the security of those different agencies to 
try and prevent miscalculation? What are the dangers in that--
if that doesn't happen?
    Dr. Blair. Well, we are living in an era that is becoming 
increasingly fraught with risk. And one of the reasons for that 
is the proliferation of ballistic missiles around the world. 
Everybody wants a ballistic missile, and everyone is getting 
them.
    There are thousands of ballistic missiles that didn't exist 
10 years ago that have been deployed. They have technological 
features that make it difficult to predict where they are going 
to land, because they are more maneuverable. They can take a 
right turn at the apex of their trajectory, and we don't know 
where they are going to land.
    So, as a result of that, we have entered an era in which we 
face false alarms, ambiguous ballistic missile threats all the 
time that we didn't during the Cold War. As I said earlier, 
some of them have risen to the level of Presidents, which never 
happened during the Cold War.
    So we have--we are--have to creatively solve the problem of 
developing confidence-building measures and other mechanisms 
that involve the intelligence community and require----
    Mr. Keating. I am just talking about----
    Dr. Blair [continuing]. Interagency----
    Mr. Keating. I understand that. I think you are bringing up 
some good points that exacerbate the situation. But I am 
talking within our own administration, when there is gaps, 
interagency gaps in communication and coordination. When there 
is gaps in the intelligence field, what are the dangers there?
    And do you think that Congress has a role in oversight to 
really do our best to make sure those gaps don't exist?
    Dr. Blair. Well, I guess I am not exactly clear what you 
are talking about----
    Mr. Keating. Within our own administration----
    Dr. Blair [continuing]. In terms of a gap. Hmm?
    Mr. Keating. There has been instances where there is gaps 
that I don't think we have seen before in the administration, 
in our intel people, in our intelligence agencies. Now, if 
those gaps are there, and the communication isn't seamless, 
isn't that a major factor in miscalculation?
    Dr. Blair. Yeah. I mean one of the important factors in 
assessing the nature of the threat, assessing whether North 
America is under attack or if there are other nefarious 
activities underway, we rely heavily on our intelligence 
community to be able to provide the decision maker----
    Mr. Keating. And----
    Dr. Blair [continuing]. With the background----
    Mr. Keating [continuing]. Is the role of Congress as an 
oversight agent critical in that regard, to maintain that we 
are doing all we can so those gaps do not exist between 
different agencies and our intel agencies?
    Dr. Blair. Well, yes, I think so. I think that you have the 
power of the purse over space and other assets----
    Mr. Keating. Thank you, Dr. Blair.
    Dr. Blair [continuing]. That are critical----
    Mr. Keating. I yield back my time.
    The Chairman. Thank you. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
the witnesses for joining us today.
    Dr. Blair, I wanted to go to you first. In your testimony 
you had spoken about reducing the number of ballistic missile 
submarines down to 5, and strategic bombers down to 40.
    I am troubled by that, because if you look at the 
availability of those submarines, we have the number we have to 
be able to put at sea any one time the necessary number to 
deter. Some of those are in port being overhauled, some of the 
sailors are on break or in training. So to have five, you don't 
have five at one time. And the same with bombers. Bomber 
availability today is based on the maintenance schedules for 
the aircraft, the bomber crews, deployment.
    So having 5 and 40 doesn't get us 5 and 40 at one time. It 
gets us significantly less than that. And obviously, that is a 
classified number, but significantly less than what is 
available in those raw numbers.
    Secondly is that our adversaries today are building attack 
submarines to take out our ballistic missile submarines at a 
record pace. In fact, some of the most advanced submarines in 
the world are the attack submarines, like the Severodvinsk 
class that the Russians are building. And they are doing 
everything they can to build those, as well as the Chinese.
    I am wondering how you believe that those will be 
significantly impactful deterrents to our adversaries, as they 
are building up, having more opportunities to take those assets 
out, and we have fewer of those assets. And even with the 
numbers there, fewer of those assets ever available at one 
time.
    I am wondering how the strategic deterrents adds up with 
those. I wanted to get your perspective on that.
    Dr. Blair. In general, you take the number of submarines 
that you build, and you can safely deploy roughly two-thirds of 
those at sea. So two-thirds of the 14 we have now is around 9. 
We can put nine at sea----
    Mr. Wittman. But--no, but your number is five. So----
    Dr. Blair. So, yeah, I am just saying----
    Mr. Wittman. Two-thirds, so you----
    Dr. Blair. I am just giving you the----
    Mr. Wittman. No, you deploy three----
    Dr. Blair. I am giving you the formula, and then--of--so I 
guess we would need--if we wanted to have five at sea, we would 
probably have to have roughly eight, all together. So----
    Mr. Wittman. But that is----
    Dr. Blair [continuing]. Two-thirds of----
    Mr. Wittman. That is not what your number says. Your number 
says 5 SSBNs and 40 bombers. It doesn't qualify that----
    Dr. Blair. Five with--actually, with five SSBNs, if you 
could keep three at sea, that would be sufficient to cover the 
aim points that I have defined as constituting a fully adequate 
deterrent threat.
    Mr. Wittman. In the face of the multiples of attack 
submarines so they could deploy out there. If all I had to 
worry about was three of our submarines being out there at any 
one point, don't you think that they would try to hunt those 
down and destroy them? Doesn't that take it out with the----
    Dr. Blair. I think----
    Mr. Wittman. Literally----
    Dr. Blair. I think both sides try to do that, and we are 
actually very good at----
    Mr. Wittman. We are actually on the down side of attack 
submarines. We are going to be down to 42 in 2028, so we don't 
even have a deterrent to go after their ballistic missile 
submarine----
    Dr. Blair. Well, the Russians and the Chinese are the sides 
that have to worry about the attack submarine problem, not us 
at the present time.
    Mr. Wittman. I----
    Dr. Blair. You can get a classified briefing from the Navy, 
and they may refute what I say, but I think that there is no 
credible intelligence for now or in the foreseeable future that 
would suggest that a ballistic missile submarine on patrol at 
sea is vulnerable to any form of Russian or Chinese attack.
    Mr. Wittman. That--really? That--there is no risk to our 
submarines by the attack submarines from our adversaries?
    Dr. Blair. I think that the Navy--you can ask them, but I 
think that they would say that the submarines that we have on--
--
    Mr. Wittman. Well, if----
    Dr. Blair [continuing]. Patrol, on launch-ready status, 
are----
    Mr. Wittman. If there is no risk there, then why do we have 
submarines and ships to try to hunt----
    Dr. Blair [continuing]. Invulnerable to any--are completely 
invulnerable for the foreseeable future.
    Mr. Wittman. Mr. Miller, I would like to get your 
perspective on that.
    Mr. Miller. Sir, I believe that the best way we hide those 
submarines is to give them vast amounts of ocean to patrol in.
    A force of 12 gives you 10 operational boats. That is 
enough to have a Pacific base and an Atlantic base. I think if 
that number came down much smaller, we would be driven to one 
base, which means we would lose an ocean's worth of patrol 
area.
    Second, if you want to maintain the same number of warheads 
at sea with a much smaller number of submarines, you have to 
put more warheads on each missile. By the basic physics, that 
reduces the range of the missile and it again reduces the 
patrol area.
    All of this moves towards instability and threatening the 
overall force. So I believe what the posture review says, that 
a minimum of 12 SSBNs is required, is in fact the--where we 
should go.
    Mr. Wittman. Okay, very good.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Kim.
    Mr. Kim. Thank you, and thank you so much, the three of 
you, for coming out and talking about such a critically 
important issue.
    Dr. Blair, I would like to start with you. Something that 
caught my attention during your opening statements, and it is 
something that I have seen in previous work that you have, 
talking about the command, control, communications, the C3 
component of this.
    You have previously said that it is required that we have a 
C3 network that is highly survivable, flexible, impervious to 
cyberattack, and fail-safe. Yet you also recognize that--and 
have pointed out that our network was last comprehensively 
updated some three decades ago. In fact, some of the 
components, you have said, date back to the 1950s, especially 
with some of the Minuteman capabilities that we have.
    So I just wanted to dig into this some more, and just ask 
how confident are you in our current nuclear command, control, 
communications, especially with regards to cybersecurity?
    Dr. Blair. I am not confident at all. And I don't think 
anyone knows the answer to that question with any degree of 
high confidence, because we have lost control over the chain of 
supply of our electronic components and our command and control 
system writ large, including our nuclear, from the level of the 
President of the United States all the way down to the cell 
towers built by Huawei that are deployed around our Minutemen 
missile fields.
    The--every now and then we conduct a study and we find new 
and worrisome vulnerabilities in this arena. The last study 
that I am aware of happened after a squadron of 50 ICBMs went 
black in 2010 because of a breakdown in our obsolete command 
and control systems. No one could monitor those weapons, no one 
could launch them on authority, or prevent their unauthorized 
launch.
    When President Obama ordered a study of the possible cyber 
vulnerability of Minuteman, it took a year. And they came up 
with some pretty interesting findings, including the fact that 
we had actually wired our nuclear launch facilities, our silo 
complexes, with the internet, and created a vulnerability to 
outside hackers.
    So there are ongoing concerns about this, and we are not 
really going to get a handle on it unless and until we can 
figure out a way to actually manage the chain of supply of 
these components.
    Mr. Kim. And that is very helpful. I mean, certainly from 
my perspective, when I try to think of worst-case scenarios, 
when it comes down to it, the possibility of a foreign agent, 
you know, to be injected into the launch procedures of this, or 
about a launch could be set off by false early detection and 
early warning, these are the same concerns that you share, it 
sounds like.
    Dr. Blair. That is right. And I think, if you talk to 
professionals in this arena, they would tell you that one of 
the most worrisome parts of this C3I complex, in terms of cyber 
vulnerability, is the early warning network. Because there are 
so many apertures in that network: satellites that have to link 
with ground sites, et cetera.
    And there is concern that the President, who has only about 
5 minutes under current strategy, to make a decision on whether 
and how to retaliate to an attack, 5 minutes, may have to rely 
on information that has been corrupted.
    Mr. Kim. When I am thinking about what can we do today to 
make sure we are moving in that process, where we have greater 
control over this and a more secure system--you have mentioned 
just now the supply chain and making sure that we can better 
understand where that is coming from, and having control over 
that.
    What are some of the other steps that we should be taking 
right now to be able to get this----
    Dr. Blair. We----
    Mr. Kim [continuing]. In a better place?
    Dr. Blair. We really have to look at the whole question of 
the insider threat.
    We have a threat model that is about 50 years old for 
assessing whether an insider could cause something really bad 
to happen with nuclear weapons. That threat model doesn't work, 
because a single insider, which is the threat model, aided by 
some outsiders today could cause far more damage, as we know 
from the case of Edward Snowden. A single insider could cause 
much more damage than ever.
    The C3I system is more vulnerable because of these new 
technologies coming along that defeat the ability to detect an 
attack. Space is becoming more vulnerable. We rely extremely 
heavily on space for our nuclear command and control systems. 
The list goes on and on and on.
    We are falling behind. That has to be the first priority of 
our nuclear modernization program. That and modernizing the 
submarines.
    Mr. Kim. Thank you----
    Dr. Blair. Don't bother with the ICBMs.
    Mr. Kim. Well, thank you. This is critically important, and 
an area where I hope all of us can find common agreement on.
    I yield back the balance of my time.
    The Chairman. Thank you.
    Mr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman. There seems to be, 
you know, a bit of debate on whether the low-yield nuclear 
weapons are effective as a deterrence. But let's assume that we 
say they are.
    Mr. Miller, are we currently at a significant disadvantage, 
in terms of tactical, low-yield nuclear weapons, in--compared 
with Russia?
    Mr. Miller. The Russians, sir, have about 2,000 low-yield 
weapons of all types: artillery shells, land mines, torpedoes, 
cruise missiles, short- to medium-range ballistic missiles. The 
United States has a very small number of air-drop weapons that 
are carried by aging aircraft in Europe, period, full stop.
    But the United States made a decision in the late 1980s, 
early 1990s, that we did not need to match the Russian arsenal. 
That is in the Nuclear Posture Review, we don't need to mirror 
or match that. We simply need to deter Russian use of their 
tactical arsenal. That is where the low-yield Trident weapon 
comes in.
    Dr. DesJarlais. Do you feel that their intention is to arm 
the hypersonic glide weapon with a nuclear warhead, as well, 
perhaps low-yield----
    Mr. Miller. It is a possibility. I can't tell you. I don't 
know what Putin's--what his intentions are.
    Dr. DesJarlais. I have heard your colleagues say that a 
low-yield and a high-yield, there is really no different--they 
are both very destructive. But if you talk about the Russians 
having capabilities to arm an artillery shell, certainly that 
wouldn't pack the same punch as some of the other low-yield 
weapons that you have described.
    Mr. Miller. I keep saying, sir, that what we think here 
doesn't matter. What the Russian planner and the Russian 
leadership believes does matter. And the Russian leadership and 
the Russian planners seem to believe that there is tactical 
utility, battlefield utility, in low-yield weapons. And that 
concerns me. And that we have to deter.
    Dr. DesJarlais. Okay. Well, the chairman made a statement 
earlier in his opening, I guess, that all we simply need to do 
is tell Russia that if they use a low-yield weapon, we are 
going to respond with a high-yield. Does that hold water?
    Mr. Miller. I don't think it holds water in Moscow.
    Dr. DesJarlais. Okay. Why is that?
    Mr. Miller. Because, given all of our capabilities, in the 
late 1990s, early 2000s, they began to develop the new weapons 
to support the new strategy.
    Dr. DesJarlais. So you are saying----
    Mr. Miller. So clearly----
    Dr. DesJarlais. In your mind they believe that they can use 
a low-yield tactical weapon without us doing what the chairman 
said, that perhaps we would pause, and that we would not 
retaliate with a large-scale, because if we did that would 
ultimately lead to nuclear annihilation, in all likelihood.
    Mr. Miller. I believe that is the essence of Russian 
strategy today.
    Dr. DesJarlais. Okay. So getting back to the importance of 
our needs, we have a gravity bomb that can be dropped from an 
airframe, but nothing that can be delivered in any other 
fashion. Is that right?
    Mr. Miller. That is correct. It cannot get there with an 
assured payload.
    And the other thing is we are not interested in fighting a 
nuclear war on any battlefield. The Trident weapon indicates 
that we are prepared to escalate this war, which means to Mr. 
Putin, ``Are you prepared to try to seize a piece of the 
Baltics, and are you prepared to bet Mother Russia in the 
gamble? Don't use a nuclear weapon at all.'' And that is what 
the low-yield Trident does.
    Dr. DesJarlais. Okay. And back to our current delivery 
system, is it capable of penetrating Russian air defenses as 
well as a cruise missile or Trident III?
    Mr. Miller. Russian air defenses are extraordinarily 
capable. We have got brave young pilots and very old airframes. 
In 10 years, when the F-35 is in the field, then it will be a 
more capable force. But again, the legs are much shorter than 
what a Trident could cover.
    Dr. DesJarlais. And do we have air defenses in Eastern and 
Western Europe that are comparable to what Russia has around 
Moscow?
    Mr. Miller. No.
    Dr. DesJarlais. So they could perceivably launch a strike 
of a low yield on Eastern Europe, and we would really have no 
means to stop it?
    Mr. Miller. Yes, sir.
    Dr. DesJarlais. Okay. So I guess your point is that there 
is a deterrence factor that would be beneficial in advancing 
the low-yield nuclear weapon. Is that right?
    Mr. Miller. Yes, sir.
    Dr. DesJarlais. Okay. Do you think that having these 
weapons and deploying them in Europe would strengthen our hand 
in negotiating the--Ranking Member Thornberry went down this 
road with you and how Reagan used that in the 1980s to bring 
Gorbachev to the table on the INF. Do you feel that if we did 
that again we could see a similar result?
    Mr. Miller. No, not in this case, because it is 30 years 
later. The allies would fracture over whether or not we were 
going to deploy a new nuclear weapons system. That is exactly 
what Mr. Putin wants. He would like to fracture the NATO 
alliance.
    So the need to deter Russian low-yield weapon use has to be 
an offshore platform, and that is why the Trident is the best 
way to do it.
    Dr. DesJarlais. Okay. So you are saying that the only 
course of action that we really have right now--and that we 
should take this course of action--is to build the low-yield 
weapon you are talking about.
    Mr. Miller. Yes, sir.
    Dr. DesJarlais. All right. I guess my time has run out. I 
was going to ask you a question about the nuclear 
infrastructure modernization, but hopefully we will get to 
that.
    I yield back.
    The Chairman. Thank you.
    Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman. This is to the entire 
panel.
    As I understand it--and again, I think I feel a little bit 
like I am behind the curve, in terms of understanding a lot of 
this, but what is being referred to as a low-yield nuclear 
warhead has about a third the power as the atomic weapons 
dropped on Hiroshima and Nagasaki. Can you help put that into 
perspective for me, how widespread the damage would be from the 
blast, and how long-lasting the radiation fallout would be?
    Dr. Blair. I will start.
    Ms. Hill. And, I guess, does it matter?
    Dr. Blair. If this 5 kiloton weapon is being produced for 
the submarine force were detonated over the White House right 
now, it would kill about 100,000 people and injure about 
125,000 people. It is extremely powerful. It is 2,500 times 
more powerful than that big bomb that destroyed Oklahoma City, 
by Timothy McVeigh.
    So we are really not talking about, you know, a low-yield 
nuclear weapon. It would be a horrendous amount of devastation 
that would be--that would result just from the immediate 
effects. That is what I am talking about. There would be the 
potential, you know, fires and other things that could cause 
even more damage than what I described.
    Ms. Hill. Mr. Miller.
    Mr. Miller. The first point about the low-yield weapon is 
to prevent any nuclear weapon use at all. Russian nuclear use 
in the theater would have catastrophic effects.
    But your--Dr. Blair's description of what this weapon would 
cause assumes that it would be aimed at a population center. 
And again, if one wants to get into the nuclear exchange game--
and I don't recommend doing that, I think the risk of 
escalation is too high--then it would be insane to fire that 
weapon at a populated area.
    Is it destructive? Yes. The point is to deter nuclear use 
by the Russians so the nuclear weapons are never used and the 
nuclear war cannot be fought.
    Ms. Hill. So it is having the effectiveness of that tool 
that would deter it. Is that the idea?
    Mr. Miller. Yes, ma'am.
    Ms. Hill. Okay. So a kind of unrelated question. France and 
Germany recently signed a treaty where the French agreed to use 
their nuclear deterrent to protect Germany. What--am I--is that 
an incorrect assessment? Do you--why do you feel they felt the 
need to do this, on top of the existing NATO alliance?
    Mr. Miller. Well, there were obvious transatlantic problems 
at this time. But the news article, in my estimation, is 
completely wrong. And having checked with friends in the Quai 
d'Orsay, France will never fully extend its nuclear deterrent 
to any other country.
    The French deterrent is based on the principle that it is--
it responds to France's vital interests. And if you ask a 
senior French official, ``What are France's vital interests,'' 
you will be told that the president of the republic will 
determine that at the moment of crisis. That is not a strong 
reed to bend--to lean on.
    Ms. Hill. Do either of you have any thoughts on--I guess, 
to me, I am--my question is whether that is an indication of 
this broader instability, and what we need to do to sort of----
    Dr. Blair. Well----
    Ms. Hill [continuing]. Attempt to----
    Dr. Blair. Yeah, I think there is clearly a sign this--even 
having that kind of a discussion amongst semi-serious people is 
a clear sign of a splintering of the NATO alliance that is 
underway. And if it continues, it could become a very serious 
problem for alliance maintenance, and could lead to all kinds 
of unanticipated and adverse consequences.
    We are not managing NATO alliance very well, in the way 
that we have pulled out of INF abruptly, the way that the 
President talks about the importance of the alliance, et 
cetera. So this is something that is worrisome, but it is 
symptomatic of some deeper issues here.
    I just would like to comment once--I think we have missed 
the boat on this whole question of Russian strategy. You know, 
their escalate to de-escalate strategy has really emerged in 
the year 2000 under Putin in response to the NATO bombing of 
Yugoslavia in 1999 in the Balkans. And the Russians looked at 
that and said, ``Wait a minute. What if this happens to us? We 
are inferior, we can't match NATO. What do we do?'' This is 
when Russia was on its knees, of course.
    And so they came up with a last-ditch approach to use 
nuclear weapons under this strategy that has been discussed, 
that it was--really highlights their--the weakness of their 
hand, and the fact that they would only resort to such use of 
weapons as a, you know, as a last resort, because they are 
losing a conflict with NATO. It is not like they have said, 
``Wow, we can come up with some new weapon that, you know, 
fills some gap in the spectrum of Western--of U.S. nuclear 
weapons and exploit it and, you know, we can go forward with 
that.'' That is just not the way that this comes down.
    Now, if Russia were to use a so-called low-yield weapon 
because they are losing a conventional conflict, we could--we 
have several options. One is just to let them continue to use--
--
    Ms. Hill. Sorry----
    Dr. Blair [continuing]. Lose the conventional----
    Ms. Hill. Dr. Blair, I just have a little bit of time left. 
I wanted to--I appreciate that, but in the remaining time I 
just want to ask all three of you. Top line, as we are going 
into this next phase of planning, new Congress, we have got--we 
are looking at 2 years, but we are also looking at the long 
term. What are the top one or two things that we need to 
consider, and recommendations as we move forward?
    Just really, really top line, as we are going back and 
explaining to our constituents why we are choosing to invest 
money in this regard, as opposed to anything else. And given 
the dynamics with this administration, with the weakening of 
the NATO alliance, or the perceived weakening of the NATO 
alliance, and everything else.
    Ms. Rohlfing. So I would like to give just two 
recommendations to that question.
    Number one is Congress needs to create space for re-
engagement with Russia on this issue of existential common 
interests. We have got to get back to the negotiating table if 
we are going to try and lower tensions and maintain the 
guardrails around nuclear forces that have served us well over 
50 years.
    Ms. Hill. I am going to cut you off in, like, six----
    Ms. Rohlfing. That is not much time for another answer.
    Just number two, you need to filter your investments in 
modernization through the prism of reducing nuclear risk and 
stability of forces.
    Ms. Hill. Thank you----
    Ms. Rohlfing. And I think that will lead you to certain 
answers.
    Ms. Hill. Thank you. Mr. Miller, and then I will go back to 
Dr. Blair.
    Mr. Miller. Quickly, modernize the triad and its supporting 
command and control, which has preserved the peace.
    Second, understand that there is no place today on the 
NATO-Russia border where Russia does not have military 
superiority.
    And third, if we are concerned--and I am--about keeping the 
NATO alliance together, no first use will create a huge schism.
    Ms. Hill. Dr. Blair.
    Dr. Blair. I think no first use is the first order of 
business, by far, along with modernization and fixing of the 
command and control weaknesses that we have.
    The Chairman. I am sorry, the----
    Dr. Blair. Thirdly, reviving our relationship with Russia 
and restoring a dialogue that could lead to real arms control 
talks.
    The Chairman. You will have to----
    Ms. Hill. Thank you all.
    The Chairman [continuing]. Close there.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    I appreciate all three of you being here today. In my 16 
assignments in the Air Force, my very first one was at SAC 
[Strategic Air Command] headquarters, and I remember General 
LeMay, who was retired at the time, walking in, quite the sight 
to see. And as a general officer, I was airborne emergency 
officer in case the ground command and control was taken out. 
So I was the person airborne to make sure that we had the 
second-strike capability.
    But from that I have made the assessment that I do think we 
need to modernize our nuclear inventory, our nuclear 
enterprise, to include all three legs of the triad. I think it 
is important for deterrence that we do that. Russia and China 
are clearly modernizing their forms of the triad, as we speak, 
while we have been falling behind. And I think if we continue 
this, or make the decision we are going to go from a triad to a 
dyad or a triad to a monad, if you will, I think that makes us 
vulnerable.
    And do we want to--how close do we want to make it? You 
know, I believe in--in my 30 years in the Air Force I never 
wanted a close fight. We want to win overwhelmingly. But in a 
nuclear deterrence we don't want to fight at all. How close do 
you measure what deterrence is? I would rather make sure that 
we have clear deterrence. I don't want to just make it close. A 
nuclear war should never be fought, and I think that--the triad 
provides us that assurance.
    And this modernization is very critical. If you look at our 
B-52s, they are created under--or built largely under John F. 
Kennedy's era. We have granddaughters today flying them that 
their grandfathers used to fly. Our Minuteman III was primarily 
built with Lyndon Baines Johnson era. Our nuclear C3 under 
Jimmy Carter's era. And we got our B-2s and our submarines that 
are 20 to 30 years old now. I think it is clear that we need to 
start this modernization. So, with that, my first question is 
with Mr. Miller.
    I believe the nuclear command and control--the nuclear C3 
is very important. Can you just explain to us why this has to 
be included into this nuclear modernization plan? We think of 
the triad a lot. We tend to forget the nuclear C3. Can you give 
us a little more reasons why we've got to make this as an 
emphasis?
    Mr. Miller. I absolutely agree with Bruce, that the nuclear 
command and control system is the backbone of the triad. If you 
can kill the nuclear command and control system, the forces 
don't work.
    The airplanes are old, the communication systems are old. 
The satellites are old and vulnerable. And so one of the key 
elements of the Nuclear Posture Review is to modernize the 
nuclear command and control system.
    You probably know that General Hyten was put in charge of 
that recently by----
    Mr. Bacon. Right.
    Mr. Miller [continuing]. Then-Secretary Mattis. That is 
absolutely critical.
    Mr. Bacon. When I flew on it, it was 1970s technology, and 
that is what we still have today.
    I am concerned about our airborne NC3 [nuclear command, 
control, and communications]. We used to have the ability--we, 
for decades, always had an airborne alert or capability 
airborne--not just alert--on the ground. I am not sure we can 
sustain that. Do we need to invest more to ensure that we have 
a 24-hour airborne capability?
    And I just open that up to any of you three.
    Dr. Blair. You know, I think you have served in the 55th 
STRAT RECON [Strategic Reconnaissance] wing?
    Mr. Bacon. In fact, I was the commander. Best wing in the 
Air Force.
    Dr. Blair. Well, I was in that wing, myself.
    Mr. Bacon. I digress.
    Dr. Blair. I was in that wing, and I supported----
    Mr. Bacon. Awesome.
    Dr. Blair [continuing]. The Looking Glass.
    Mr. Bacon. Right.
    Dr. Blair. So I know what you are talking about. And as you 
know, the endurance of the airborne system in an environment of 
nuclear war is not going to be very long. So I don't think the 
airborne system should be the backbone of our command and 
control system.
    We--in the 1980s, under Reagan, we started to look at 
ground mobile systems to support continuity of government and 
all the rest. I think we need to completely relook at the 
architecture of our command and control system. Airplanes don't 
last nearly as long as our forces. Submarines can operate for 
months at sea. And our command system collapses in 24 hours. It 
doesn't make sense.
    So yeah, and then we modernize--if you like the triad, you 
really want to have a triad, Congress, I think, should ask for 
some new ideas beyond and besides putting new ground-based 
strategic deterrent missiles, 642 of them, available to put 
into vulnerable silos. That doesn't make--that is not 
eliminating vulnerability, that is just compounding a problem 
that already exists.
    Mr. Bacon. If I may, I would just like to ask you a 
separate question, Dr. Blair, and it is something that you 
mentioned earlier.
    I feel like what Russia is doing, they are producing more 
cruise missiles, nuclear-armed cruise missiles, hypersonic 
weapons. They admit to having low-yield weapons. They have 
almost fully modernized their ICBMs, they are looking at 
bombers. Who--sometimes--and I hear the critical--or people 
being critical towards the President, as if he is creating an 
arms race. Isn't Russia initiating an arms race? And so far we 
have not really been participating. What is your thoughts on 
that?
    Dr. Blair. Like I say, I think, going back for half a 
century, you will see cycles of modernization that we like to 
call an arms race, but they are actually just replacing aging 
and obsolete systems.
    The Chairman. And we are, unfortunately, out of time, this 
witness. I apologize.
    Ms. Houlahan.
    Ms. Houlahan. Thank you very much to the panel for coming 
and speaking to us on this really important topic. Similarly, I 
served in the Air Force, as well. Also in the late 1980s and 
early 1990s was my time in the military. And actually, in terms 
of what my job was, was about command and control decisions in 
the event of a nuclear apocalypse, or Armageddon, and helping 
to think about human-in-the-loop, and what sort of information 
was needed by whom at what point in time to make really good 
decisions.
    And interestingly, I was there being told that my job was 
to predict and build for the next generation's worth of 
technologies. So 25 years later, here I sit. And so, 
theoretically, what I was working on in the field then should 
be deployed now, hopefully--or maybe not hopefully. So here I 
am. Everything old is new again; 20, 25 years later I am having 
a conversation about a threat that I thought went away in the 
early 1990s.
    And so, my questions have to do a little bit with Chairman 
Smith's statement that we need to figure out what we need to 
do, and where we don't need to spend money, we shouldn't be 
spending money, how we can be most effective in modernizing, 
how we can be most effective in helping the President and other 
decision makers make effective decisions with modern 
technology, specifically with C3I.
    And so I know that Andy Kim, Representative Kim, asked you 
questions about cyber, cyber vulnerabilities. My questions have 
to do with artificial intelligence, and whether or not we have 
thought about the use of AI in the command and control 
structure as we are modernizing.
    If we are using something like AI as it is currently 
evolving, is that something that would help us minimize costs 
at all?
    Or it is something that is not yet kind of developed enough 
that we can effectively think about employing it because it is 
not really this generation when we are thinking about something 
as terrifying as nuclear weapons and their deployment?
    Should we be developing these technologies that--can they 
save us any money in testing? And what are the risks?
    And my next question has to do with whether our adversaries 
are, in fact, thinking about AI, since they are ahead of the 
curve, in terms of modernization with command and control 
issues.
    Ms. Rohlfing. So I would like to jump in on that, if I 
could. I would just observe that the deployment of new 
technologies is outpacing our understanding of the threats they 
pose at the same time as, you know, we know that they bring 
benefits.
    And I think on AI, as well as with cyber, we need to be 
sitting down with our adversaries and having a much better 
understanding of potential implications and red lines.
    On cyber, I would just say, echoing what we have already 
heard a number of people in the room say, I think it is 
essential that we invest in secure communications. That is an 
important priority for this committee and the Congress' 
investments in general.
    But I would just note that, even as we do that, we should 
not be sanguine that we can buy our way out of the cyber 
vulnerability of nuclear systems. And this is a really 
important point. And I don't think it is one that has had any 
airtime here today, and that is in 2013 the Defense Science 
Board issued a report that basically said we cannot have 
confidence that any of our nuclear weapons systems have not 
been compromised, meaning----
    Ms. Houlahan. No, and I----
    Ms. Rohlfing [continuing]. Right, they all have.
    Ms. Houlahan. Trust me, I understand. And I am also 
concerned about cyber. But I am also, in terms of emerging 
threats and uses of technologies, concerned about artificial 
intelligence, too, and making sure that it is sophisticated 
enough and developed enough to be useful.
    So I would love it if we could focus on artificial 
intelligence and the deployment of that, in terms of command 
and control. If--to the degree that we have any understanding 
of whether we are going to be implementing it or not.
    Ms. Rohlfing. So in that--I would just say to that I think 
what we need to be doing is talking with Russia, with China, 
with others on making sure we understand red lines, rules of 
the road. And we should also be looking at, if we cannot come 
up with the perfect technical solution, what kind of policy and 
posture changes should we be thinking about putting into effect 
to make us safer. And that goes for both cyber and AI in the 
future.
    Ms. Houlahan. Mr. Miller, do you have anything to add?
    Mr. Miller. Congresswoman, there is nobody in this room 
more ignorant on AI than I am.
    [Laughter.]
    Mr. Miller. That said, it does--I would be concerned that, 
in the process of a nuclear launch decision or execution, that 
AI is involved. These are hugely life-shattering events. I 
think a human in the loop is absolutely critical.
    Ms. Houlahan. And I agree with you. And when I served, 
human-in-the-loop was absolutely--you know, and it sounds like 
to this day, you know--kind of a important procedure.
    But if we are talking about seconds, you know, milliseconds 
that can be saved by decisions that can be helped by AI that 
are helping the human-in-the-loop, that is what is alarming and 
concerning to me that I would love to hear a little bit about.
    Mr. Miller. I agree with that. But I do think that we have 
overloaded our people. And, you know, we don't want robotics to 
take over the nuclear decision and execution process. But they 
can be very useful, I think, in----
    The Chairman. We are out of time, we have to move on.
    Mr. Miller [continuing]. Relieving the overload.
    The Chairman. I completely agree with you, don't want a 
robot in charge of launching nuclear weapons. I think that----
    Mr. Miller. The Russians have one.
    The Chairman. Yeah, fun thought.
    Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman. And I just want to 
reiterate my colleagues that--statements, that U.S. 
modernization, or anticipated modernization, is not kicking off 
a renewed arms race. It is Russian and Chinese modernization 
that have already occurred, or is occurring that is kicking off 
this new arms race, and that also--the United States didn't 
withdraw from INF unilaterally; the Russians withdrew 
effectively about 10 years ago. And we have since matched that 
withdrawal. And then also need to address the Chinese 
continually growing missile threat.
    So, question on low-yield, because I am still a little 
confused where you are, and I know we beat this dead horse, but 
just one more question on it.
    Do you believe, as expert witnesses, that if the Russians 
launched low-yield--meaning carrier battle group, port, took 
out critical capability--that the United States would and 
should--and should signal that we will mount a full 
retaliation, and then, therefore, that is our--should be our 
posture, going forward?
    Do you believe the United States would essentially destroy 
the world in response to a low-yield attack?
    Ms. Rohlfing.
    Ms. Rohlfing. Well, again, I think the goal here--and I 
agree with Frank--is to prevent these weapons from----
    Mr. Waltz. Totally agree, but the Russians----
    Ms. Rohlfing [continuing]. Ever being used.
    Mr. Waltz. Getting in the Russian mindset----
    Ms. Rohlfing. But I think----
    Mr. Waltz [continuing]. If they are going to launch it, and 
they do launch it----
    Ms. Rohlfing. I think----
    Mr. Waltz [continuing]. Our response?
    Ms. Rohlfing. I think we have an arsenal today that is a 
fully capable deterrent, capable of deterring any kind of 
nuclear use by the Russians.
    Mr. Waltz. Do the Russians believe that?
    Ms. Rohlfing. That----
    Mr. Waltz. In your estimation.
    Ms. Rohlfing. That is a debatable proposition that is--
there is, in fact, one thing that has not even come up, whether 
the Russians even truly have adopted a policy of escalate to 
de-escalate is under debate within the community of people who 
follow this very closely.
    Mr. Waltz. Dr. Blair.
    Dr. Blair. That is right. And I think that they have been 
working hard to dig themselves out of that hole.
    I think they did have a escalate to de-escalate, or--early 
on, but that they recognized that that is a liability, that 
Russians, like us, would like to reduce reliance on nuclear 
weapons.
    And so they have developed a very sophisticated doctrine of 
attacking critical civilian infrastructure using special 
operations, cyber, and conventional forces that I think they 
understand would be even more devastating----
    Mr. Waltz. Let me ask you differently. Do you----
    Dr. Blair. So if they did----
    Mr. Waltz. If we had a----
    Dr. Blair [continuing]. If they did use a low-yield----
    Mr. Waltz. Sorry, I have very limited time, so----
    Dr. Blair. If they did use a low-yield weapon, I think we 
have three choices.
    One is to continue to win the conventional conflict and 
keep the burn of escalation on the Russians. Second----
    Mr. Waltz. Right.
    Dr. Blair [continuing]. We have a lot of low-yield weapons. 
We could use those.
    And third, if--Russians believe escalate to de-escalate is 
a----
    Mr. Waltz. But we have testimony that many of our current 
low-yields are not effective.
    Dr. Blair. If they think it is a viable doctrine, then they 
must understand that we could escalate to de-escalate. And----
    Mr. Waltz. Dr.----
    Dr. Blair [continuing]. And we are in an infinite loop. 
Everyone loses, because the ultimate escalate to de-escalate is 
an all-out nuclear war.
    Mr. Miller. I think, Congressman, you have described the 
reason that the Russians have proceeded to develop a new 
generation of low-yield weapons, a doctrine to support that 
use, and the exercise of those weapons.
    Mr. Waltz. Dr. Miller, do you think that the Russians would 
be less likely and, therefore, to your point, Ms. Rohlfing, to 
go to the bargaining table, or back to the bargaining table, if 
we had a credible low-yield deterrent----
    Mr. Miller. I think----
    Mr. Waltz [continuing]. For them to use low-yield nuclear 
weapons? And therefore, I think we would be in a safer place.
    Mr. Miller. Bargaining table, sir?
    Mr. Waltz. Well, would the Russians be less likely to use 
their now-modernized--if we modernized ours, as well, and 
matched----
    Mr. Miller. That is the purpose of the low-yield Trident. 
The Nuclear Posture Review says that. It is to raise the 
nuclear threshold and to discourage any miscalculation by the 
Russian leadership.
    Mr. Waltz. We are moving towards the expiration of New 
START, as we have talked about. We are--we have moved beyond an 
era. We have bilateral treaties, and now a--in a previous 
bilateral nuclear world. Now we have a multi-lateral nuclear 
world.
    Should we move--I mean where do you think we should go? 
Obviously, we have talked about extending New START, we have 
talked about broadening it to get the full capability of 
weapons, including China.
    Mr. Miller. I think we should continue to talk to the 
Chinese, but there is absolutely no indication that they have 
any interest in entering into any arms control discussion.
    The Russians have violated--are violating, as we sit here--
nine arms control agreements. I think that we need to proceed 
ahead to try to get our arms around their strategic weapons, 
their novel weapons, and their non-strategic weapons.
    Mr. Waltz. Doctor----
    Dr. Blair. Global Zero----
    Mr. Waltz. Please, very quickly.
    Dr. Blair [continuing]. My organization, convened a panel 
at the Munich Security Conference, at which a senior Russian--
sorry, Chinese--general laid out their position, which is that 
the United States and Russia need to deeply reduce their 
nuclear forces.
    Mr. Waltz. I am sure they do think so.
    Dr. Blair. And then they would be prepared to enter into--
this is a long-standing position that goes all the way back to 
Huang Hua in 1982. What the Chinese are willing to talk about 
are confidence-building measures at this point. And they 
propose a no first use agreement to everyone.
    Everyone has spurned it, except for the Russians. And so 
the Chinese and the Russians have a no first use agreement to--
with each other right now. And so they are----
    Mr. Waltz. Which I have very little confidence in.
    But finally, do you--just very quickly, do you agree the 
number of countries marching towards a full nuclear capability, 
or even a partial, is growing in the world.
    Back to my colleague's questions, Iran, of course, North 
Korea, Pakistan, with its growing arsenal, potentially the 
Saudis, is that--a proliferation and a growing, fully capable 
missile command and control and nuclear threat, is that 
increasing or decreasing, in terms of the threat around the 
world?
    Ms. Rohlfing. Increasing.
    Dr. Blair. Definitely increasing, particularly in South 
Asia.
    Mr. Miller. Actually, I think the non-proliferation treaty 
has worked, and I think--I worry about Iran and North Korea, 
but I don't see major nuclear programs developing at this time.
    The Chairman. Thank you.
    Mr. Waltz. Thank you. I yield my time.
    The Chairman. Mrs. Luria.
    Mrs. Luria. Well, thank you for being here today. In the 
recent nuclear review, the 2018 Nuclear Posture Review, the 
review found that ``the nuclear triad supported by the North 
Atlantic Treaty Organization, NATO, dual-capable aircraft, and 
a robust nuclear command, control, and communications system is 
the most cost-effective and strategically sound means of 
ensuring nuclear deterrence.''
    One could read this statement and think, of course, coming 
from the current administration, but I also want to point out 
that the 2010 Nuclear Posture Review under President Obama 
said, quote, that the ``nuclear triad continues to play an 
essential role in deterring potential adversaries, and 
reassuring allies and partners around the world. And thus, 
maintains strategic stability at a reasonable cost.''
    As a committee we should be steadfast in our support for 
maintaining and modernizing the nuclear triad. So while I 
appreciate the differing points of view today, I think it is 
dangerous to allow someone to come before this committee and 
suggest that the United States should reduce or completely 
eliminate its nuclear stockpile, and I base that off reading 
previous writings that some of the committee members had 
previously published.
    And to suggest that other countries would follow suit out 
of goodness of their heart--in fact, I think we have seen the 
opposite in the past 10 years. The 2010 Nuclear Posture Review 
contained the following quote: ``Russia and the United States 
are no longer adversaries, and prospects for military 
confrontation have declined dramatically.''
    Mr. Miller, do you agree that Russia and the United States 
are no longer adversaries?
    Mr. Miller. I think that the Russians think that we are 
adversaries. I think that the threats that Putin is making, 
which are reminiscent of the Khrushchev-like threats, are 
utterly out of place in the 21st century world. And I worry 
about where the Russian leadership is going.
    Mrs. Luria. So I take that you think we are still 
adversaries.
    Mr. Miller. Yes, ma'am, I do.
    Mrs. Luria. Okay. And I liked a quote that you used 
earlier. You said that deterrence is about getting in the mind 
of the other person, or not. And to use that, do you think that 
the 2010 statement of what I would see as appeasement 
contributed to the global security situation we find ourselves 
in today with Russia, such as their continuing modernization of 
their nuclear arsenal, the invasion of Crimea, meddling in our 
election process, et cetera?
    Mr. Miller. I think President Obama made a bold move to try 
to get the Russians to--to try to lead. I think 8, 9 years 
later, we find ourselves in the position where the evidence is 
overwhelming that the Russians have rejected that idea, as they 
have rejected other ideas to move towards nuclear stability, 
like moving to single warhead ICBMs. The Russians rejected 
that. They rejected getting out of the business of tactical 
nuclear weapons.
    So the notion that we can lead the Russians to some path 
where they will lay down their arms or become more peace-loving 
has been disproven over the last 10 years.
    Mrs. Luria. Okay. And do you think that the testimony we 
have heard today from Mr. Blair and Ms. Rohlfing could be 
construed by our allies and our potential adversaries as a lack 
of commitment on the part of the United States to modernization 
of our nuclear triad?
    Mr. Miller. No, I don't, because I think the strength and 
the essence of our democracy is that we have contesting views 
back and forth, and that is--we are a democratic alliance in 
NATO. And I think this is--this debate is good. And for this 
committee to hear this debate--and as we did last week in front 
of the Senate, this is an important part of democracy.
    Mrs. Luria. Okay. Well, thank you. And I just want to close 
by clearly stating my position is that I think the United 
States should be committed to maintaining and modernizing all 
three legs of the nuclear triad, and continuing to provide an 
effective and modernized nuclear umbrella--both the protection 
of ourselves and of our allies.
    Thank you. I yield my time.
    The Chairman. Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman. Thank you to 
our witnesses.
    Mr. Miller, one of the threads that you hear frequently 
among those who advocate Global Zero is this notion that 
somehow, if we just cut our arsenal, our adversaries will 
follow suit. We saw this very clearly, for example, when 
President Obama was in Strasbourg, France, in 2009. And he 
actually said if the United States would just cut the size of 
its nuclear arsenal, we could then convince the Iranians and 
North Koreans to do the same.
    Have you seen any evidence in all of your years of work 
that this is an approach that would yield fruit?
    Mr. Miller. No, absolutely not. In fact, under your 
father's strong leadership, the Department of Defense, we 
dramatically reduced our non-strategic nuclear forces. The 
Russians pledged they would do the same thing, and they 
maintained their forces. And now they have modernized them.
    We said we would move to single warhead ICBMs to be more 
stable. The Russians have maintained multiple-warhead ICBMs and 
are now going back to this large, heavy ICBM, which is clearly 
known to be destabilizing.
    So I see no evidence that the Russians have bought into 
anything that we do in this area.
    Ms. Cheney. Thank you. And with respect to treaties, to 
INF, to New START, to some of the other treaties that we have 
discussed today, do you see any historic evidence of a treaty 
increasing American security if the United States is the only 
party to the treaty that is, in fact, adhering to the 
limitations of the treaty?
    Mr. Miller. If the United States is the only party in a 
treaty, it is unilateral restraint, it is not a treaty. And 
that is what happened to INF. It was a treaty. The Russians 
moved out, leaving us in a position of unilateral restraint. 
The treaty was dead.
    Ms. Cheney. Thank you. And I know all of us on this 
committee share the view that we have to ensure that a nuclear 
war is never fought. And part of that is, obviously, making 
sure that, in terms of deterrents, we also have the ability to 
have an effective extended deterrence.
    Could you talk about the impact on our ability to provide 
extended deterrence if we are, in fact, seen as failing to 
modernize our own strategic forces, if we are seen as failing 
to make the investments that are necessary, with respect to our 
own stockpile?
    Mr. Miller. I think it would break NATO. I think it could 
lead to the development of other nuclear weapon states inside 
the alliance, as they went to save themselves. I think it would 
be a terribly destabilizing thing.
    Ms. Cheney. Thank you. And then on no first use, that is 
another thing that we hear repeatedly, in terms of--that is 
supposed to bring some sort of stability to this entire issue. 
Could you talk about the damage that a no first use policy 
would do?
    Mr. Miller. I think it would have four effects.
    One, it would fracture NATO. This is the wrong time to get 
into more transatlantic angst, and it would create angst.
    Second, it could create a movement in some of our NATO 
allies to think about building their own weapons.
    Third, it would not change Russian and Chinese doctrine in 
the slightest.
    And fourth, I don't believe Russia or China would believe 
that we actually did it, because they are conspiratorial, and 
so it wouldn't change crisis management behavior.
    Ms. Cheney. Thank you. And then finally, in testimony by 
one of the other witnesses today ICBM--the ICBM force was 
referred to as ``sitting ducks that invite attack.'' Could you 
respond to that, and explain to me whether or not you view that 
as an accurate description of our ICBM force?
    Mr. Miller. The ICBM could, obviously, be fired if it was 
under attack. And any--an enemy leadership would have no 
confidence that it could preempt that force. That is a powerful 
deterrent. Launching 400 or 800 warheads to destroy that force 
is an unmistakable signal the United States is under massive 
attack. And therefore, again, it raises the bar to aggression 
and attack against us.
    I think the ICBM force is a critical part of the triad, the 
triad is a critical part of the deterrent.
    Ms. Cheney. Thank you very much. I had the opportunity to 
spend time on Friday with General Hyten at STRATCOM. I think 
that our strategic forces underpin absolutely everything we do. 
I think it would be the height of irresponsibility for us to be 
in a position where we decide that we are going to unilaterally 
disarm. We have to modernize. I think that we ought to be in a 
position where we are all absolutely affirming the importance 
of the triad.
    And I look forward very much to General Hyten coming to 
testify, and I hope that will be soon, Mr. Chairman, in front 
of this committee, the way he has in front of the Senate Armed 
Services Committee.
    Thank you to our witnesses, and I yield back my time.
    The Chairman. Thank you. I am not sure of the exact timing, 
but as part of our posture review hearings he is scheduled to 
testify.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you all for being here today. We have heard a lot of 
discussion about how we must maintain our nuclear weapons 
systems, not to--not designed to be used, but to act as a 
deterrent because they are so powerful, so dangerous, and the 
effects of using these nuclear weapons would be so devastating 
that they are not actually intended to be used. Would you agree 
with that?
    [Nonverbal response.]
    Ms. Gabbard. So if we understand that, then we must also 
understand that low-yield nuclear weapons are not designed to 
act as a deterrent, but are instead actually designed to be 
used.
    Mr. Miller. I--Russian low-yield weapons are designed to 
implement a Russian strategy of use. The low-yield Trident that 
the NPR [Nuclear Posture Review] calls for is designed to 
prevent the Russians from reaching for that low-yield nuclear 
weapon and using it in the field.
    Ms. Gabbard. Dr. Blair.
    Mr. Miller. It is a deterrent.
    Dr. Blair. Well, I think it is--I think it--I think the 
Russians clearly understand, and I have been there dozens of 
times over many decades, and talked to their experts and their 
generals. I think they clearly understand that any use of 
nuclear weapons would run the risk of escalation to all-out 
use, and that the role--the Russians, essentially, accept that 
the role--sole purpose of nuclear weapons is to deter the use 
of nuclear weapons by others.
    But they also leave open the possibility that they could 
use nuclear weapons to defeat or to complicate conventional 
aggression against Russia.
    Ms. Gabbard. Ms. Rohlfing, you have anything to add on 
that?
    Ms. Rohlfing. I agree with what Dr. Blair just said.
    Ms. Gabbard. I think it is very clear to me that a nuclear 
weapon is a nuclear weapon. And if you are talking about a 
nuclear weapon as a deterrent, but then you want to develop 
low-yield nuclear weapons, it is clear that they would not be 
necessary if you see that a nuclear weapon is a nuclear weapon, 
and that the system that we currently have acts as a deterrent.
    Secretary of State George Shultz said, as they were 
negotiating and signing the INF Treaty, ``A nuclear weapon is a 
nuclear weapon. You use a small one, then you go to a bigger 
one. There is an inevitable chain of nuclear escalation that 
puts the world at risk,'' which is why these low-yield nuclear 
weapons being developed are so dangerous.
    I want to switch over to the INF Treaty. Mr. Miller, where 
do you see the path forward? You have said the INF Treaty is 
dead. What is the path forward?
    Mr. Miller. The INF Treaty is dead because the Russians now 
have 100 of the systems that are----
    Ms. Gabbard. But what is the path forward?
    Mr. Miller. I would think that a new negotiation, which 
encompasses an extension of New START, in conjunction with new 
negotiations that cover all U.S. and Russian nuclear weapons, 
would be a preferred path forward.
    Ms. Gabbard. So it is the wrong move for the United States 
to withdraw from this INF Treaty----
    Mr. Miller. I----
    Ms. Gabbard [continuing]. Because of the repercussions that 
we are seeing already beginning.
    Mr. Miller. I dispute the--the treaty was dead. The 
Russians killed the treaty. There are 100 new treaty-busting 
missiles in the field, period, full stop. They have been--
developed them since 2013. We have been asking them about it 
since 2013. The end result is the fielding of at least 100 of 
these missiles, and more are coming.
    Ms. Gabbard. President Trump's withdrawal from this INF 
Treaty exacerbates the situation, and kicks off--and increases 
this nuclear arms race.
    Gorbachev and George Shultz wrote a piece on this, very 
clearly stating that they participated in INF negotiations, and 
abandoning this treaty threatens our very existence. They said, 
``The answer to the problems that have come up is not to 
abandon the INF Treaty, but to preserve and fix it. Military 
and diplomatic officials from the U.S. and Russia should meet 
to address and resolve the issues of verification and 
compliance. Equally difficult problems have been solved in the 
past, once the two sides put their mind to it. We are confident 
this can be done again.'' That is quoting them.
    This is the direction that we need to take, not to add more 
fuel to the flames, but instead seek to strengthen, address the 
issues that have been raised, strengthen this treaty, and bring 
in others to join.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Mr. Chairman and members of the committee, 
as well as our three witnesses, I want to thank you for an 
extraordinarily important discussion, perhaps more important 
than any other thing this committee will consider over the next 
4 or 5 months, as we put together the NDAA [National Defense 
Authorization Act]. So thank you very much.
    I do want to pick up on Mr. Moulton's questions, insofar as 
you were able to answer. One of the questions that he raised is 
do the ICBMs deter Russia's attack more than our other nuclear 
weapons, specifically the SSBNs.
    Mr. Blair.
    Dr. Blair. I think the SSBNs are a secure second strike. 
They are what underwrites deterrence. The ICBM force is a 
vulnerable force. I don't see how anyone could make any sense 
out of the view that they are a force to be replaced.
    Mr. Garamendi. With regard to that question, it also 
appears as though Russia and China both would agree with you 
that the ICBMs in a silo are vulnerable. And therefore, they 
have gone to mobile ICBMs.
    Dr. Blair. That is right. And we try very hard----
    Mr. Garamendi. I think that is going to be a yes or a no, 
because I want to get on----
    Dr. Blair. Oh, we try very hard to find, fix, and track 
their--both Russian and Chinese ICBMs. This is part of the----
    Mr. Garamendi. And North Korea.
    Dr. Blair [continuing]. Warfighting mindset that is 
pervasive in both----
    Mr. Garamendi. But with regard to the question of 
vulnerability, are--China, Russia, and North Korea have all 
decided that it has to be mobile, otherwise it is vulnerable. 
Is that correct, Mr. Miller?
    Mr. Miller. [Nonverbal response.]
    Mr. Garamendi. Okay, thank you. And I take that as a yes.
    Mr. Miller. Yes, but that Russia does maintain silo-based 
missiles, and the new monster SS-18 follow-on will be silo-
based. And some Chinese missiles are still silo-based. But your 
point is correct.
    Mr. Garamendi. We are going to go around and around on this 
very, very fundamental issue for some time. We are going to 
have to deal with the issue. There may be questions, 
ultimately, of how fast we move forward with the new ICBM, and 
we will deal with that.
    However, there appears, Mr. Blair, that you have one thing 
very, very much in mind that the three of you would agree to, 
and that is the command and control systems. If we are to do 
anything useful, aside from the negotiations, which I think all 
three of you say we ought to push forward as far and as fast as 
possible--is that a yes from all three of you on negotiations, 
get on with it?
    [Nonverbal response.]
    Mr. Garamendi. Thank you. So that--take that as a yes from 
the three of you.
    Command and control. If we do anything useful in the 
upcoming NDAA, would you recommend that the command and control 
system be at the priority and the top of that list?
    Mr. Miller. Yes, sir.
    Ms. Rohlfing. Yes.
    Dr. Blair. Yes.
    Mr. Garamendi. Well, I have got 3 minutes to go back and 
plow this field again, but I heard very clearly that--well, let 
me just state my position.
    We are not going to solve this very, very fundamental 
debate about the very important differences--ICBMs and low-
yield and the rest--in the near term. It seems to me that that 
is a fundamental negotiating thing. And I think, from my--
listening to this, that all three of you would say, ``Get on 
with the negotiations.''
    There are things in the--and there are things that we can 
do in the next 4 months or 5 months, and that is command and 
control, put the money there, put the emphasis there, and get 
on with it.
    Is that correct?
    Mr. Miller. It is certainly part of the modernization of 
the triad, and I support the triad and the modernization, the 
C3.
    Dr. Blair. Top priority.
    Mr. Garamendi. I knew you were going to go there, Mr. 
Miller, but I take that as a yes, get on with the command and 
control.
    Mr. Miller.
    Dr. Blair. Yes.
    Mr. Garamendi. Mr. Blair, rather.
    Dr. Blair. Totally agree.
    Ms. Rohlfing. Yes, I would prioritize command and control.
    Mr. Garamendi. Very good. Beyond that, there are elements 
in the current law that make it very difficult for our military 
to have discussions with our counterparts in Russia, 
specifically, and somewhat in China.
    I think it was your--two of you, anyway, maybe all three of 
you--that we eliminate those hindrances for discussion. Is that 
agreed amongst the three of you, that we should eliminate 
those?
    Ms. Rohlfing. I would say yes. Those prohibitions embedded 
in the NDAA over the last several years should be repealed. And 
in fact, the administration should be encouraged to pursue 
military-to-military dialogue.
    Mr. Garamendi. Mr. Blair.
    Dr. Blair. Chairman Dunford has just recently just met with 
the chief of the general staff of Russia, Gerasimov, and I 
think that that kind of dialogue is absolutely critical in this 
period of tension.
    Mr. Miller. And CNO [Chief of Naval Operations] Richardson 
has just been to China. So yes, the military-to-military 
contacts are important.
    Mr. Garamendi. Okay. Well, there is at least agreement that 
there is something that we can accomplish in a positive way.
    My final point in the next 53 minutes is--or 53 seconds--is 
that we do not have an agreement on what deterrence is, nor the 
definition of deterrence. And until we have some sort of an 
agreement on what that is, it is going to be a round and round, 
and not much resolution.
    With that, I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our witnesses for your testimony this 
morning. And let me begin with saying that, as you know, the 
United States has demonstrated strong leadership over the past 
decade to minimize and, where possible, all but eliminate the 
use of highly enriched uranium for civilian purposes. And I 
advocated for continued assessment to identify the feasibility 
of using low-enriched uranium in naval reactor fuel that would 
meet military requirements for aircraft carriers and 
submarines.
    So as I see it, using low-enriched uranium in naval reactor 
fuel has the potential to bring significant national security 
benefits related to nuclear non-proliferation, and lower 
security costs. It also supports naval reactor research and 
development at the cutting edge of nuclear science.
    Other nations do use low-enriched uranium to power their 
vessels, including submarines.
    Moreover, unless an alternative to using low-enriched 
uranium fuel is developed in the coming decades, the U.S. will 
have to resume production of bomb-grade uranium for the first 
time since 1992, ultimately undermining, I believe, U.S. non-
proliferation efforts.
    So with all that being said, is this something that you 
considered in your research? And what are the risks associated 
with the recommencement of HEU [highly enriched uranium] 
production in the United States?
    Dr. Blair. It is not in my wheelhouse, but I have a 
colleague at Princeton, Professor Frank von Hippel, who has 
persuaded me of everything that you just said. So I think that 
you are on the right--totally on the right track with that set 
of proposals.
    Ms. Rohlfing. I would just add to that this is something 
that we have looked at at the Nuclear Threat Initiative, and I 
think that it would be a very important investment to see if we 
can develop a next-generation reactor that maintains only, you 
know, as much as possible, current operations with the low-
enriched uranium fuel for our naval reactors. So I would 
encourage it. It is an important plank in our non-proliferation 
policy.
    We need to prevent the spread of these materials around the 
world. And if we are continuing to produce it ourselves, and 
stockpile it in large numbers, that is hard to do.
    Mr. Miller. Sir, in my time in the Navy I was on a 
conventionally powered ship. I am not competent to talk about 
HEU, LEU [low enriched uranium], and reactors, but I think it 
is a mistake to think that if the United States does something, 
the rest of the world will follow. I think the sad history of 
the past 20-odd years indicates that we have proposed bold 
initiatives and, except for the British and the French, it is 
very difficult to bring other countries along with us.
    Mr. Langevin. But I am primarily focused on U.S. use of 
LEU. As long as it is going to meet military requirements--and 
again, certainly France is already doing it, powering their 
nuclear submarines, as I understand it. So it is technically 
feasible, it is happening, and I see no reason why the United 
States should not pursue that, and that type of technology and 
use in our aircraft carriers and submarines. But----
    Mr. Miller. Sure, and----
    Mr. Langevin [continuing]. I appreciate your----
    Mr. Miller. I am sure Admiral Caldwell will have a time in 
front of the committee. You can talk to that.
    Mr. Langevin. I thank you for your input on that topic.
    Next, though, the use of emerging technologies, such as 
machine learning to conduct predictive maintenance and additive 
manufacturing to help defray costs is something that we should 
be considering.
    The Defense Department has seen some success with these 
types of technology. However, the effort is in a nascent state. 
Do you see a place for these technologies in the nuclear force? 
And what do you think they will--what effect do you think they 
will have?
    Ms. Rohlfing. I think we need to do more research to better 
understand both the benefits and the disadvantages of pursuing 
those technologies as part of the nuclear force before I could 
make a recommendation.
    Dr. Blair. You know, I think existing technology, even 10 
years old, it could be incorporated into our systems, including 
our nuclear command and control system, which operates on--in 
some cases, on 1950s technology. So I don't think we have to 
leap too far into the future with new technology to fix a lot 
of the problems that we currently confront.
    Mr. Miller. I am not competent to answer your question, 
sir.
    Mr. Langevin. Okay. Thank you all very much. I yield back.
    The Chairman. Thank you. I want to thank our witnesses. I 
think it was a very, very informative discussion, and I 
appreciate your expertise and your answers to our questions. 
And we learned a great deal.
    I just want to close by saying that I don't think there is 
anybody on this committee--there is probably people in the 
country, but there is not anybody on this committee who is not 
in support of modernizing our nuclear force. And I don't think 
there is anybody on this committee who is not in support of the 
idea that we need to have a nuclear deterrent.
    To the extent that some of the questions from members 
implied that somehow, if we don't do everything in the Nuclear 
Posture Review that means that we are in favor of unilateral 
disarmament and being weak, is exactly--the type of argument 
that has always troubled me on this committee is you can always 
build more. Well, okay if the Nuclear Posture Review is the 
gold standard for what makes you strong, why not another 1,000 
missiles, you know?
    I mean what if someone came up with a Nuclear Posture 
Review that said no, you are wrong, you know, we need five more 
submarines. So then the Nuclear Posture Review becomes evidence 
that you are weak.
    So I am very--the only thing that really troubles me about 
the discussion is people say that if we don't build absolutely 
everything we say we are going to build, that means that our 
adversaries are going to perceive us as weak and attack us. 
That is--I think the analogy I have heard in the military--the 
ultimate self-licking ice cream cone. It will never stop.
    So I think a robust discussion about what is actually in 
the Nuclear Posture Review and whether or not it makes sense to 
maintain that deterrence, that is the debate we were having. I 
understand in politics it is always easier if you can set up a 
straw man and then knock it down--the straw man being that, you 
know, well, let's not be weak. That is not the discussion here. 
The discussion here: what is a credible nuclear deterrent? And 
I completely agree that that is what we need.
    I would point out that, over the course of the next 15 
years, the nuclear modernization plan that we are talking about 
is going to add somewhere between $10 and $15 billion a year to 
what we already spend on nuclear weapons, and we already spend 
a great deal. That is $10 to $15 billion that isn't going to go 
to anything else.
    So we need to have that discussion, in my view. But it is 
not a matter of disarming or, you know, standing down. I think 
we need to have a strong nuclear deterrent, and we need to 
modernize. But we will continue to have this debate, going 
forward.
    Again, you were all excellent, and I really appreciate you 
taking the time to help inform our committee on this crucially 
important issue.
    With that, we are adjourned.
    I forgot something. I am going to ask unanimous consent to 
include into the record all members' statements and extraneous 
material.
    Without objection, so ordered.
    And now we are adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]



      
=======================================================================



                            A P P E N D I X

                             March 6, 2019

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2019

=======================================================================

      
      
                   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. The Trump administration Nuclear Posture Review notes 
that the administration will ``seek arms control agreements that 
enhance security, and are verifiable and enforceable.'' The 
administration has also noted as recently as this month that Russia is 
in compliance with the Treaty. Do you believe the New START Treaty 
meets that threshold?
    Ms. Rohlfing. [The information was not available at the time of 
printing.]
    Mrs. Davis. The Trump administration Nuclear Posture Review notes 
that the administration will ``seek arms control agreements that 
enhance security, and are verifiable and enforceable.'' The 
administration has also noted as recently as this month that Russia is 
in compliance with the Treaty. Do you believe the New START Treaty 
meets that threshold?
    Dr. Blair. [The information was not available at the time of 
printing.]
    Mrs. Davis. The Trump administration Nuclear Posture Review notes 
that the administration will ``seek arms control agreements that 
enhance security, and are verifiable and enforceable.'' The 
administration has also noted as recently as this month that Russia is 
in compliance with the Treaty. Do you believe the New START Treaty 
meets that threshold?
    Mr. Miller. [The information was not available at the time of 
printing.]
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. How confident are you in our current nuclear command, 
control, and communication (C3) systems, especially regarding 
cybersecurity? If no, why not? What can be done in the short and long 
term to reduce these cyber vulnerabilities?
    Dr. Blair. [The information was not available at the time of 
printing.]
    Mr. Kim. How confident are you in our current nuclear command, 
control, and communication (C3) systems, especially regarding 
cybersecurity? If no, why not? What can be done in the short and long 
term to reduce these cyber vulnerabilities?
    Mr. Miller. [The information was not available at the time of 
printing.]

                                  [all]
</pre></body></html>
